SEMIANNUAL
REPORT TO CONGRESS
October 1, 2013–March 31, 2014
SEMIANNUAL
REPORT TO CONGRESS
October 1, 2013–March 31, 2014
                    Message From the
                    Inspector General
                    As I reflect on the last six months, I am reminded of the important
                    role agency leadership plays in ensuring that our work contributes to
                    the improvement of the programs and operations of the Board of
                    Governors of the Federal Reserve System (Board) and the
                    Consumer Financial Protection Bureau (CFPB). In January, we
                    bade farewell to Board Chairman Ben Bernanke. The former
                    Chairman was extremely committed to effective oversight, and we
                    greatly appreciated his strong support for the work of the Office of
                    Inspector General (OIG). He is succeeded by Chair Janet Yellen. In
   Mark Bialek      her confirmation hearing before the Senate Committee on Banking,
Inspector General
                    Housing, and Urban Affairs, as well as in her remarks at her
                    ceremonial swearing in, Chair Yellen voiced her pledge to
                    transparency and accountability and her intention to build on
                    Chairman Bernanke’s legacy of openness. While Vice Chair, Chair
                    Yellen was steadfast in her support of our mission. I have every
                    confidence that, as Chair, she will remain vigilant in ensuring robust
                    oversight at the Board, and I look forward to building an even
                    stronger relationship with her.
                    We also appreciate CFPB Director Richard Cordray’s emphasis
                    on the importance of oversight as the CFPB continues to establish
                    its programs and as its operations mature. During this reporting
                    period, we significantly expanded our reviews of the CFPB to help
                    the agency improve its programs and operations. In addition, at the
                    request of Director Cordray, Deputy Inspector General Tony Ogden
                    and I spoke to CFPB staff at an invigorating lunch-and-learn
                    session about the OIG’s mission, vision, values, and oversight role.
                    During this reporting period, we began work to initiate and
                    implement the goals and objectives outlined in our Strategic
                    Plan 2013–2016. This is a foundational year for us, as we lay the
                    groundwork for enhancing timely, high-quality products and
                    services; developing our workforce; engaging our stakeholders; and
                    enhancing our internal operations. In particular, we embarked for
                    the first time on developing a list of major management challenges
                    for the Board and the CFPB. We believe this undertaking is




                    Semiannual Report to Congress | October 1, 2013–March 31, 2014
important because it will enable us to focus our work on high-risk
areas and to help Board and CFPB leaders by highlighting those
challenges that, in our opinion, are critical for the agencies to
confront to successfully accomplish their missions. We will report
more fully on these challenges, as well as provide a progress report
on our Strategic Plan, in the next Semiannual Report to Congress.
I look forward to working with Chair Yellen and Director Cordray
on the challenges ahead as we continue to broaden the scope of
the issues we review. As always, I would like to thank all OIG staff
members for their continued commitment to helping the OIG be
the trusted oversight organization of the Board and the CFPB.
Sincerely,




Mark Bialek
Inspector General
April 30, 2014




Office of Inspector General
Board of Governors of the Federal Reserve System | Consumer Financial Protection Bureau
Contents
Highlights	                                                           1
Introduction	                                                         7
Audits, Evaluations, and Inspections	                                11
     Board of Governors of the Federal Reserve System	               12
     Consumer Financial Protection Bureau	                           32
Failed State Member Bank Reviews	                                    45
     Material Loss Reviews	                                          45
     Nonmaterial Loss Reviews	                                       45
Investigations	                                                      49
     State Member Banks	                                             49
     Bank Holding Companies	                                         51
Hotline	                                                             59
Legal Services	                                                      61
Communications and Coordination	                                     63
     Congressional Coordination and Testimony	                       63
     Council of Inspectors General on Financial Oversight	           63
     Council of the Inspectors General on Integrity and Efficiency
        and Inspector General Community Involvement	                 64
     Financial Regulatory Coordination	                              64
Peer Reviews	                                                        67
Abbreviations	                                                       69




Semiannual Report to Congress | October 1, 2013–March 31, 2014
Highlights
The Office of Inspector General (OIG) continued to promote the
integrity, economy, efficiency, and effectiveness of the programs and
operations of the Board of Governors of the Federal Reserve System
(Board) and the Consumer Financial Protection Bureau (CFPB).
The following are highlights of our work during this semiannual
reporting period.


Audits, Evaluations, and Inspections
  •	 We issued 9 reports concerning the Board and 6 concerning the
     CFPB.
  •	 We have 23 ongoing projects.
Below are some of the highlights.
The Board’s Recordkeeping, Cost Estimation, and Cost
Management Processes for the Martin Building Construction
and Renovation Project. The Martin Building construction
and renovation project is projected to cost $280.4 million, and it
has been identified as a strategic theme in the Board’s strategic
framework. We assessed how the cost estimates for the project
were determined and how these costs will be managed. We found
that the project team did not adequately maintain documentation
supporting its conceptual construction cost estimate for the Martin
Building project and that support was not available for several line
items. We also found that the conceptual construction cost estimate
contained errors and inconsistencies. In addition, the Board has
not yet established a contractual stated cost limitation with the
architecture and engineering firm and has not required the firm to
submit cost-saving items to aid in cost management. The Board
has taken several steps since 2011 to improve management of the
Martin Building project. We made six recommendations to improve
the Board’s cost estimation process and cost management and
recordkeeping practices.
The Efficiency and Effectiveness of the CFPB’s Supervisory
Activities. We conducted this evaluation to assess the operational
efficiency and effectiveness of the CFPB’s supervision program.




Semiannual Report to Congress | October 1, 2013–March 31, 2014          1
    The CFPB’s supervision activities include (1) prioritizing and
    scheduling examinations, (2) planning and executing examinations,
    and (3) reporting findings in the form of reports of examination
    or supervisory letters. Since it began operations in July 2011,
    the CFPB has made significant progress toward developing and
    implementing a comprehensive, nationwide supervision program
    for depository and nondepository institutions. While we recognize
    the considerable efforts associated with the initial development
    and implementation of the program, we believe that the CFPB can
    improve the efficiency and effectiveness of its supervisory activities.
    Specifically, the CFPB needs to (1) improve its reporting timeliness
    and reduce the number of examination reports that have not been
    issued, (2) adhere to its unequivocal standards concerning the
    use of standard compliance rating definitions in its examination
    reports, and (3) update its policies and procedures to reflect current
    practices.
    CFPB management indicated that it had taken various
    measures to address certain findings in our report. We made
    12 recommendations designed to assist the CFPB in strengthening
    its supervision program.
    The CFPB’s Approach to Integrating Enforcement Attorneys
    Into Examinations. Our evaluation objectives were to assess (1) the
    potential risks associated with the CFPB’s approach to integrating
    enforcement attorneys into examinations and (2) the effectiveness
    of any safeguards that the CFPB adopted to mitigate the potential
    risks associated with this examination approach. We found that
    the CFPB should determine the appropriate level of enforcement
    attorney integration into examinations by reassessing the potential
    risks associated with the practice against the potential benefits
    and document the results of the assessment. The CFPB’s policy
    describing the integrated approach did not sufficiently detail how
    it should be implemented. As a result, CFPB staff ’s execution of
    the policy, as well as their messaging to supervised institutions
    concerning the role of enforcement attorneys, varied considerably.
    According to CFPB senior officials, the agency has reconsidered
    its approach regarding integrating enforcement attorneys into
    examinations. New policies and procedures reflecting the revised
    approach became effective in November 2013. We made seven
    recommendations in our report.




    Office of Inspector General
2
    Board of Governors of the Federal Reserve System | Consumer Financial Protection Bureau
The Board’s and the CFPB’s Information Security Programs.
To meet our annual Federal Information Security Management
Act of 2002 (FISMA) reporting responsibilities, we reviewed the
information security programs and practices of the Board and the
CFPB. FISMA requires federal agencies to develop, document,
and implement an agency-wide information security program.
FISMA also requires each Inspector General (IG) to conduct an
annual independent evaluation of the agency’s information security
program and practices.
Overall, we found that the Board’s Chief Information Officer
is maintaining a FISMA-compliant approach to the Board’s
information security program that is generally consistent with
requirements established by the National Institute of Standards
and Technology (NIST) and the Office of Management and
Budget; however, we identified opportunities for improvement
in the areas of incident response and reporting, security training,
and contractor systems. During the past year, the Board’s
Information Security Officer has continued to make progress in
implementing an enterprise information technology (IT) risk
management framework and a continuous monitoring program;
however, additional steps are needed to fully implement programs
that are consistent with FISMA requirements. We made two
recommendations to assist the Board in strengthening its
information security program.
For the CFPB, we found that while the agency has taken several
steps to develop, document, and implement an information security
program that is consistent with FISMA requirements, there are
opportunities for improvement in several information security
areas. We made four recommendations designed to assist the CFPB
in strengthening its information security program in the areas
of continuous monitoring, configuration management, security
training, and incident response and reporting.
The Relocation of the Board’s Data Center. We determined
that the Board is following a structured approach to planning the
relocation of its data center, and Board staff are actively engaged in
the planning and decisionmaking for the project. The Board should
take additional action, however, to keep the project progressing to
meet requirements and remain on schedule. First, the Board has not
reevaluated the overall funding for relocating the data center since
initially approving the consultant’s cost projection of $201.5 million




Semiannual Report to Congress | October 1, 2013–March 31, 2014           3
    in June 2012 as the overall budget for the project. This figure was
    an initial estimate of project costs rather than a detailed budget for
    the project. Since the initial estimate, design changes have occurred.
    Second, the construction phase of the data center relocation project
    has an aggressive schedule with several identified risk areas; any
    delays in the data center project may impact the Martin Building
    renovation schedule. We made two recommendations in our report.


    Investigations
       •	 We opened 12 cases and closed 1.
       •	 We referred 8 matters to the U.S. Department of Justice.
       •	 We had 9 indictments and were responsible for nearly
          $339 million in criminal fines, restitution, and forfeiture.
    Our most significant cases are highlighted below.
    Sentencing of Former Chief Executive Officer of the Bank of
    the Commonwealth. On November 6, 2013, the former Chief
    Executive Officer and Chairman of the Board for the Bank of the
    Commonwealth, Norfolk, Virginia, was sentenced to 23 years in
    prison, followed by 5 years of supervised release, for conspiracy
    to commit bank fraud, false entry in a bank record, unlawful
    participation in loans, false statements to a financial institution,
    misapplication of bank funds, and bank fraud. The court further
    ordered the defendant to pay $333.6 million in restitution to
    the Federal Deposit Insurance Corporation (FDIC), which has
    sustained at least $333 million in losses. The defendant was found
    guilty on May 24, 2013, after a 10-week jury trial. The defendant’s
    crimes contributed to the failure of the Bank of the Commonwealth
    on September 23, 2011. Bank of the Commonwealth is a state
    member bank regulated by the Board.
    Guilty Pleas for Seven Former Bank Officers of First National
    Bank of Savannah. Seven former officers of First National Bank
    of Savannah pleaded guilty before a United States District Court
    Chief Judge, Southern District of Georgia, for their role in a
    massive loan-fraud scheme against First National Bank of Savannah
    and other federally insured banks. The defendants pleaded guilty
    to various charges in a 47-count indictment returned by a federal




    Office of Inspector General
4
    Board of Governors of the Federal Reserve System | Consumer Financial Protection Bureau
grand jury in Savannah in January 2013. According to evidence
presented during the guilty plea hearings, as First National Bank of
Savannah’s financial condition began to deteriorate, the defendants
concealed from the bank, the bank’s board of directors, and federal
regulators millions of dollars in nonperforming loans. First National
Bank of Savannah failed and was taken over by the FDIC on June
25, 2010. The FDIC estimates that the bank’s failure will cost the
Deposit Insurance Fund (DIF) over $90 million. First National
Bank of Savannah is a subsidiary of First National Corporation, a
bank holding company regulated by the Board.




Semiannual Report to Congress | October 1, 2013–March 31, 2014          5
Introduction
Congress established the OIG as an independent oversight
authority of the Board, the government agency component of the
broader Federal Reserve System, and the CFPB. In fulfilling this
responsibility, the OIG conducts audits, evaluations, investigations,
and other reviews related to Board and CFPB programs and
operations. By law, the OIG is not authorized to perform program
functions.
Consistent with the Inspector General Act of 1978, as amended (IG
Act), our office has the following responsibilities:
  •	 to conduct and supervise independent and objective audits,
     investigations, and other reviews related to Board and CFPB
     programs and operations to promote economy, efficiency, and
     effectiveness within the Board and the CFPB
  •	 to help prevent and detect fraud, waste, abuse, and
     mismanagement in Board and CFPB programs and operations
  •	 to review existing and proposed legislation and regulations and
     make recommendations regarding possible improvements to
     Board and CFPB programs and operations
  •	 to keep the Board of Governors, the Director of the CFPB, and
     Congress fully and currently informed
Congress has also mandated additional responsibilities that
influence the OIG’s priorities, to include the following:
  •	 Section 38(k) of the Federal Deposit Insurance Act, as amended
     (FDI Act), requires that the OIG review failed financial
     institutions supervised by the Board that result in a material
     loss to the DIF and produce a report within six months.
     Section 38(k) also requires that the OIG conduct an in-depth
     review of any nonmaterial losses to the DIF that exhibit
     unusual circumstances. For those in-depth reviews, we report
     our results in a manner similar to a material loss review. For
     nonmaterial losses that do not exhibit unusual circumstances, we
     typically summarize the results of our assessments in a table in
     accordance with the requirements of section 38(k).




Semiannual Report to Congress | October 1, 2013–March 31, 2014          7
       •	 Section 211(f ) of the Dodd-Frank Wall Street Reform and
          Consumer Protection Act (Dodd-Frank Act) requires that the
          OIG review the Board’s supervision of any covered financial
          company that is placed into receivership and produce a report
          that evaluates the effectiveness of the Board’s supervision,
          identifies any acts or omissions by the Board that contributed to
          or could have prevented the company’s receivership status, and
          recommends appropriate administrative or legislative action.
       •	 Section 989E of the Dodd-Frank Act established the Council
          of Inspectors General on Financial Oversight (CIGFO), which
          comprises the Inspectors General (IGs) of the Board, the
          Commodity Futures Trading Commission, the U.S. Department
          of Housing and Urban Development, the U.S. Department
          of the Treasury (Treasury), the FDIC, the Federal Housing
          Finance Agency, the National Credit Union Administration,
          the Securities and Exchange Commission, and the Special
          Inspector General for the Troubled Asset Relief Program
          (SIGTARP). CIGFO is required to meet at least quarterly to
          share information and discuss the ongoing work of each IG,
          with a focus on concerns that may apply to the broader financial
          sector and ways to improve financial oversight. Additionally,
          CIGFO is required to issue a report annually that highlights
          the IGs’ concerns and recommendations, as well as issues that
          may apply to the broader financial sector. CIGFO also has the
          authority to convene a working group of its members to evaluate
          the effectiveness and internal operations of the Financial
          Stability Oversight Council, which was created by the Dodd-
          Frank Act and is charged with identifying threats to the nation’s
          financial stability, promoting market discipline, and responding
          to emerging risks to the stability of the nation’s financial system.
       •	 With respect to IT, FISMA established a legislative mandate for
          ensuring the effectiveness of information security controls over
          resources that support federal operations and assets. Consistent
          with FISMA requirements, we perform annual independent
          reviews of the Board’s and the CFPB’s information security
          programs and practices, including the effectiveness of security
          controls and techniques for selected information systems.
       •	 The USA Patriot Act of 2001 grants the Board certain federal
          law enforcement authorities. Our office serves as the external
          oversight function for the Board’s law enforcement program.




    Office of Inspector General
8
    Board of Governors of the Federal Reserve System | Consumer Financial Protection Bureau
  •	 Section 11B of the Federal Reserve Act mandates annual
     independent audits of the financial statements of each Federal
     Reserve Bank and of the Board. We oversee the annual
     financial statement audits of the Board and of the Federal
     Financial Institutions Examination Council (FFIEC). (The
     Board performs the accounting function for the FFIEC.) The
     FFIEC is a formal interagency body empowered to prescribe
     uniform principles, standards, and report forms for the federal
     examination of financial institutions by the Board, the FDIC,
     the National Credit Union Administration, the Office of
     the Comptroller of the Currency (OCC), and the CFPB
     and to make recommendations to promote uniformity in the
     supervision of financial institutions. (Under the Dodd-Frank
     Act, the U.S. Government Accountability Office performs the
     financial statement audit of the CFPB.)




Semiannual Report to Congress | October 1, 2013–March 31, 2014         9
Audits, Evaluations,
and Inspections
Audits assess aspects of the economy, efficiency, and effectiveness of
Board and CFPB programs and operations. For example, the OIG
oversees audits of the Board’s financial statements, and it conducts
audits of (1) the efficiency and effectiveness of the Board’s and
the CFPB’s processes and internal controls over their programs
and operations; (2) the adequacy of controls and security measures
governing these agencies’ financial and management information
systems and the safeguarding of assets and sensitive information;
and (3) compliance with applicable laws and regulations related
to agency financial, administrative, and program operations. OIG
audits are performed in accordance with the Government Auditing
Standards established by the Comptroller General of the United
States.
Inspections and evaluations include program evaluations and
legislatively mandated reviews of failed financial institutions
supervised by the Board. Inspections are often narrowly focused
on a particular issue or topic and provide time-critical analysis that
cuts across functions and organizations. In contrast, evaluations are
generally focused on a specific program or function and may make
extensive use of statistical and quantitative analytical techniques.
OIG inspections and evaluations are performed according to
the Quality Standards for Inspection and Evaluation issued by the
Council of the Inspectors General on Integrity and Efficiency
(CIGIE).
The information below summarizes OIG audit, evaluation, and
inspection work completed during the reporting period and ongoing
work that will continue into the next semiannual reporting period.




Semiannual Report to Congress | October 1, 2013–March 31, 2014           11
     Board of Governors of the
     Federal Reserve System

     Completed Projects

     Opportunities Exist for the Board to Improve
     Recordkeeping, Cost Estimation, and Cost Management
     Processes for the Martin Building Construction and
     Renovation Project
     OIG Report No. 2014-AE-B-007	                                            March 31, 2014

     We performed this audit because the Martin Building construction
     and renovation project requires a significant investment of resources,
     and it has been identified as a strategic theme in the Board’s
     strategic framework. Our objectives were to assess how the cost
     estimates for the project were determined and how costs will be
     managed within the Board’s strategic framework.
     The Martin Building project comprises construction of a visitors’
     center, construction of a conference center, and renovation of the
     Martin Building. The concept for the project began shortly after
     the events of September 11, 2001. Since the original concept
     was developed, the Martin Building project has gone through a
     lengthy design phase, primarily due to significant scope changes.
     These scope changes also resulted in the preparation of multiple
     estimates that were eventually consolidated into a single conceptual
     construction cost estimate of $179.9 million, which is one
     component of an overall estimated project cost of $280.4 million.
     Our audit focused on the Martin Building project’s conceptual
     construction cost estimate that was available during our fieldwork.
     Conceptual cost estimates are typically used during initial planning
     and should be updated as scope and costs are clarified. Consistent
     with this practice, the Board’s architecture and engineering firm and
     construction administrator submitted updated estimates based on
     detailed project requirements in December 2013. These estimates
     were within the expected range of the conceptual cost estimate
     developed by the Martin Building project team.




     Office of Inspector General
12
     Board of Governors of the Federal Reserve System | Consumer Financial Protection Bureau
Our audit identified opportunities for the Board to improve its
recordkeeping, cost estimation, and cost management processes for
the Martin Building project. Specifically, we found that the project
team did not adequately maintain documentation supporting its
conceptual construction cost estimate for the Martin Building
project, and support was not available for several line items. We
also found that the conceptual construction cost estimate contained
errors and inconsistencies. In addition, the Board has not yet
established a contractual stated cost limitation with the architecture
and engineering firm and has not required the firm to submit cost-
saving items to aid in cost management.
Actions that the Board has taken since 2011 to improve
management of the Martin Building project include arranging
for the preparation of an independent construction cost estimate;
hiring additional personnel, including a senior project manager, with
construction experience; dedicating a procurement staff member to
the project; and acquiring a records management system. We made
six recommendations to improve the Board’s cost estimation process
and cost management and recordkeeping practices. The Board
concurred with our recommendations and noted that it is taking
actions to implement them.


Audit of the Board's Data Center Relocation
OIG Report No. 2014-IT-B-002	                                    February 7, 2014

Our objective for this initial audit was to obtain information and
gain an understanding of the scope, cost, and project schedule
for the relocation of the Board’s data center. Overall, our audit
determined that the Board is following a structured approach to
planning the relocation of the data center, and Board staff are
actively engaged in the planning and decisionmaking for the project.
The Board has executed a memorandum of understanding with
the Federal Reserve Bank of Richmond for the construction of the
new data center and is maintaining a project management team and
oversight group to monitor progress and risks.
We determined, however, that there are two areas for which
additional actions by the Board are needed to keep the project
progressing to meet requirements and remain on schedule. First,
the Board has not reevaluated the overall funding for relocating the
data center since initially approving the consultant’s cost projection




Semiannual Report to Congress | October 1, 2013–March 31, 2014                      13
     of $201.5 million in June 2012 as the overall budget for the project.
     This figure was an initial estimate of project costs based on rough
     order of magnitude pricing used to analyze alternatives rather than
     a detailed budget for the project. Since the initial estimate, design
     changes have occurred. Second, the construction phase of the data
     center relocation project has an aggressive schedule with several
     identified risk areas; any delays in the data center project may
     impact the Martin Building renovation schedule.
     We made two recommendations. The Board indicated that it
     agrees with our recommendations, and it outlined actions that
     have been taken, are underway, and are planned to address our
     recommendations. We intend to continue to monitor the Board’s
     data center relocation as the project continues through 2015.


     2013 Audit of the Board's Information Security Program
     OIG Report No. 2013-IT-B-019	                                      November 14, 2013

     To meet our annual FISMA reporting responsibilities, we reviewed
     the information security program and practices of the Board.
     FISMA requires federal agencies to develop, document, and
     implement an agency-wide information security program. FISMA
     also requires each IG to conduct an annual independent evaluation
     of the agency’s information security program and practices.
     Overall, we found that the Board’s Chief Information Officer
     is maintaining a FISMA-compliant approach to the Board’s
     information security program that is generally consistent with
     requirements established by NIST and the Office of Management
     and Budget.
     The Board’s Information Security Officer continues to issue
     policies and procedures that include attributes identified within
     the U.S. Department of Homeland Security (DHS) reporting
     metrics. In our response to the 11 DHS reporting metrics for 2013,
     we found that the Board has effective programs in place that are
     consistent with FISMA requirements and that include attributes
     identified by DHS for plan of action and milestones, remote
     access management, identity and access management, contingency
     planning, configuration management, and security capital planning.
     We also found that the Board has programs in place that include
     attributes identified within the DHS reporting metrics for incident




     Office of Inspector General
14
     Board of Governors of the Federal Reserve System | Consumer Financial Protection Bureau
response and reporting, security training, and contractor systems;
however, our report identifies opportunities for improvement within
those areas. During the past year, the Information Security Officer
has continued to make progress in implementing an enterprise IT
risk management framework and a continuous monitoring program;
however, additional steps are needed to fully implement programs
that are consistent with FISMA requirements.
We made two recommendations related to tracking training for
individuals with significant information security responsibilities and
continuous monitoring. The Director of the Division of Information
Technology, in her capacity as Chief Information Officer, agreed
with our recommendations and stated that she intends to take
immediate action to address each recommendation. In addition, we
kept open our 2012 recommendations related to incident reporting
and contractor systems and our 2011 recommendation related to
risk management.


The Board's Law Enforcement Unit Could Benefit From
Enhanced Oversight and Controls to Ensure Compliance
With Applicable Regulations and Policies
OIG Report No. 2014-AE-B-006	                                    March 28, 2014

The objective of this inspection was to assess the Law Enforcement
Unit’s (LEU) compliance with Board and LEU internal policies,
procedures, and applicable regulations. The Board’s General Orders
and the Uniform Regulations for Federal Reserve Law Enforcement
Officers cover qualifications and standards, jurisdiction, cross-
designation, training, authority to carry firearms, use of force, arrest
powers, execution of searches, plain-clothes operations, internal
oversight, and external oversight. The Uniform Regulations for
Federal Reserve Law Enforcement Officers requires each Federal
Reserve System LEU to establish an internal oversight committee
that will have inspection and evaluation responsibilities for the unit
and designates the Board’s OIG to perform the external oversight
function for the Board’s LEU.
We found that the LEU could benefit from enhanced oversight and
controls to ensure compliance with applicable Board regulations
and LEU policies and procedures. Specifically, we found that the
Board’s internal oversight committee did not perform the required
reviews of the LEU and that LEU management could not account




Semiannual Report to Congress | October 1, 2013–March 31, 2014                    15
     for credentials and badges; did not confirm the assignment of
     credentials, badges, and firearms from inventory; and did not
     verify that instructors and officers met all training requirements.
     In addition, in some instances there was insufficient evidence that
     officers were eligible to possess firearms and understood the Use of
     Force Policy because the signed forms, which are required annually,
     were not available.
     We made 10 recommendations designed to enhance the oversight
     of the LEU and improve the LEU’s programs and operations.
     Management concurred with our recommendations and noted that
     it is taking actions to implement them.


     Opportunities Exist to Achieve Operational Efficiencies
     in the Board's Management of Information Technology
     Services
     OIG Report No. 2014-IT-B-003	                                        February 26, 2014

     The Board’s strategic framework highlights achieving operational
     efficiencies and reducing costs as key priorities. In support of these
     strategic priorities, our audit objective was to determine how IT
     services are managed across Board divisions and identify areas where
     operational efficiencies could be achieved.
     Overall, our audit determined that the Board does not track costs
     for IT services in a consistent manner, and the Board has not
     implemented consistent processes for applications development
     and help-desk services. In addition, we found that the Board’s
     efforts to develop an enterprise architecture have not included all
     technologies and services used across Board divisions. We made
     two recommendations and presented a matter for management’s
     consideration. The Board agreed with our recommendations and
     outlined actions that have been taken, are underway, or are planned
     to address our recommendations.




     Office of Inspector General
16
     Board of Governors of the Federal Reserve System | Consumer Financial Protection Bureau
Response to a Congressional Request Regarding the
Board's Compliance with Federal Requirements for
Addressing Climate Change
October 29, 2013

The OIG responded to a letter from the co-chairs of the Bicameral
Task Force on Climate Change regarding the Board’s response to
climate change. The Task Force’s letter requests the identification
of existing requirements in legislation, regulations, executive orders,
and other directives that apply to the Board and our assessment
of how the Board is meeting these requirements. The Task Force
also requested an assessment of the Board’s authorities to reduce
emissions of heat-trapping pollution and to make the nation more
resilient to the effects of climate change.
The Board’s Legal Division is responsible for determining the
federal climate change requirements to which the Board is subject.
The Board’s response to the OIG’s inquiry stated that it is not
legally required to comply with the provisions of the Energy
Independence and Security Act of 2007, the Energy Policy Act
of 2005, Executive Order 13514, or Executive Order 13423.
Notwithstanding this determination, the Board’s response described
several climate change initiatives it has voluntarily undertaken.
In our letter addressing the Task Force’s request, we summarized
the Board’s response to our inquiry. We recognize the financial
and environmental risks that climate change poses to the federal
government, and we will consider additional reviews of the Board’s
climate change initiatives during our annual planning process.


Board of Governors of the Federal Reserve System
Financial Statements as of and for the Years Ended
December 31, 2013 and 2012, and Independent Auditors'
Reports
We contract with an independent public accounting firm to
annually perform an audit to express an opinion on the fair
presentation of the Board’s financial statements and an opinion
on the effectiveness of the Board’s internal controls over financial
reporting. The OIG oversees the activities of the contractor to
ensure compliance with generally accepted government auditing
standards and Public Company Accounting Oversight Board




Semiannual Report to Congress | October 1, 2013–March 31, 2014            17
     auditing standards related to internal controls over financial
     reporting. The audit involves performing procedures to obtain
     audit evidence about the amounts and disclosures in the financial
     statements. The audit also includes evaluating the appropriateness
     of accounting policies used and the reasonableness of significant
     accounting estimates made by management, as well as evaluation of
     the overall financial statement presentation.
     In the auditors’ opinion, the Board’s financial statements presented
     fairly, in all material respects, the financial position and the results of
     its operations and its cash flows as of December 31, 2013 and 2012,
     in conformity with U.S. generally accepted accounting principles.
     Also, in the auditors’ opinion the Board maintained, in all material
     respects, effective internal control over financial reporting as of
     December 31, 2013, based on the criteria established in Internal
     Control—Integrated Framework (1992) by the Committee of
     Sponsoring Organizations of the Treadway Commission.
     As part of providing reasonable assurance that the financial
     statements are free of material misstatement, the auditors also
     performed tests of the Board’s compliance with certain provisions of
     laws and regulations that could have a direct and material effect on
     the determination of the financial statement amounts. The results
     of the auditors’ tests disclosed no instances of noncompliance that
     would be required to be reported under the Government Auditing
     Standards, issued by the Comptroller General of the United States.


     Federal Financial Institutions Examination Council
     Financial Statements as of and for the Years Ended
     December 31, 2013 and 2012, and Independent Auditors'
     Reports
     The Board performs the accounting function for the FFIEC, and
     we contract with an independent public accounting firm to annually
     audit the council’s financial statements to provide reasonable
     assurance that the financial statements are free of material
     misstatement. The OIG oversees the activities of the contractor to
     ensure compliance with generally accepted government auditing
     standards. The audit involves performing procedures to obtain
     audit evidence about the amounts and disclosures in the financial
     statements. The audit also includes evaluating the appropriateness
     of accounting policies used and the reasonableness of significant




     Office of Inspector General
18
     Board of Governors of the Federal Reserve System | Consumer Financial Protection Bureau
accounting estimates made by management, as well as an evaluation
of the overall financial statement presentation.
To determine the auditing procedures necessary to express an
opinion on the financial statements, the auditors considered the
FFIEC’s internal controls over financial reporting. As part of
providing reasonable assurance that the financial statements are
free of material misstatement, the auditors also performed tests
of the FFIEC’s compliance with certain laws and regulations that
could have a direct and material effect on the determination of the
financial statement amounts.
In the auditors’ opinion, the FFIEC’s financial statements presented
fairly, in all material respects, the financial position, results of
operations, and cash flows as of December 31, 2013 and 2012,
in conformity with accounting principles generally accepted
in the United States. The auditors noted no matters involving
internal control over financial reporting that would be required
to be reported under the Government Auditing Standards, issued
by the Comptroller General of the United States. The results of
the auditors’ tests disclosed no instances of noncompliance that
would be required to be reported under the Government Auditing
Standards.


Transfer of Office of Thrift Supervision Functions Is
Completed
OIG Report No. 2014-AE-B-004	                                    March 26, 2014

Title III of the Dodd-Frank Act established provisions for the
transfer of authorities from the Office of Thrift Supervision to
the OCC, the FDIC, and the Board within one year after the
July 21, 2010, enactment date. Title III transferred to the Board,
on July 21, 2011, the functions and rulemaking authority for
consolidated supervision of savings and loan holding companies
and their nondepository subsidiaries. The Dodd-Frank Act required
that, within 180 days after its enactment, the Office of Thrift
Supervision, the OCC, the FDIC, and the Board jointly submit a
plan—the Joint Implementation Plan—to Congress and the IGs
of Treasury, the FDIC, and the Board that detailed the steps each
agency would take to implement the title III provisions. The Joint
Implementation Plan was submitted to Congress and the IGs on
January 25, 2011. The Dodd-Frank Act also required the IGs to




Semiannual Report to Congress | October 1, 2013–March 31, 2014                    19
     determine whether the implementation plan conformed to the title
     III provisions. On March 28, 2011, the IGs jointly issued a report
     concluding that the actions described in the Joint Implementation
     Plan generally conformed to the provisions of title III.
     Section 327 of title III requires the IGs to report on the status of
     the implementation of the Joint Implementation Plan every six
     months. The IGs have issued six status reports to date, the latest and
     final having been issued on March 26, 2014. This report concluded
     that all title III requirements have been met.


     Work in Progress

     Review of the Federal Reserve's Supervisory Activities
     Related to the Loss at JPMorgan Chase & Co.'s Chief
     Investment Office
     We continued fieldwork for our evaluation of the Federal Reserve’s
     supervisory activities related to the multibillion-dollar loss at
     JPMorgan Chase & Co.’s Chief Investment Office. Our objectives
     for this evaluation are to (1) assess the effectiveness of the Board’s
     and the Federal Reserve Bank of New York’s consolidated and other
     supervisory activities regarding JPMorgan Chase & Co.’s Chief
     Investment Office and (2) identify lessons learned for enhancing
     future supervisory activities. We plan to issue this report in the next
     semiannual reporting period.


     Audit of the Board's Information Technology
     Contingency Planning and Continuity of Operations
     Program
     During this reporting period, we completed our fieldwork and
     briefed Board management on the cost of maintaining the
     Board’s IT continuity of operations program. In addition to
     identifying potential cost savings and opportunities to enhance
     efficiencies, our audit focuses on determining whether the Board’s
     program is consistent with federal guidelines and how the Board’s
     contingency planning and its continuity of operations program
     provide a coordinated strategy involving plans, procedures, and
     technical measures that enable the recovery of information systems,




     Office of Inspector General
20
     Board of Governors of the Federal Reserve System | Consumer Financial Protection Bureau
operations, and data after a disruption. We expect to issue our final
report during the next semiannual reporting period.


Evaluation of the Operational Components of the Board's
Law Enforcement Unit
We completed our evaluation of the operational components of
the Board’s LEU and plan to issue the results of our evaluation
during the next semiannual reporting period. The LEU safeguards
most Board-designated property and personnel 24 hours a day,
7 days a week. In the Board’s 2012–2015 strategic framework, the
sixth strategic theme is to establish a cost-reduction approach for
Board operations that maintains an effective and efficient use of
financial resources. Accordingly, the Board’s Management Division,
which includes the LEU, linked its program area objectives to the
strategic framework and identified opportunities for potential cost
savings and for operational efficiency improvement. We addressed
our evaluation objective to assess the economy and efficiency of the
LEU’s operational components by reviewing the LEU’s approach
to identifying cost savings and opportunities for operational
efficiencies. We plan to issue this report in the next semiannual
reporting period.


Audit of the Relocation of the Board's Data Center
During this period, we initiated the next phase of our ongoing
oversight of the Board’s relocation of its data center. The relocation
of the data center is a multiyear project that is planned to be
completed in 2015. We are monitoring the project and will issue
reports at key points. Our objectives during the initial audit were
to obtain information and gain an understanding of the project’s
scope, cost, and schedule. We issued our first report on February 7,
2014, with recommendations related to monitoring costs and
schedule. During this phase, we will follow up on recommendations
from our initial audit and focus on the construction and equipment
procurement process to ensure that the Board is implementing
physical and environmental controls. We plan to issue this report in
the next semiannual reporting period.




Semiannual Report to Congress | October 1, 2013–March 31, 2014           21
     Evaluation of the Board's Policies, Procedures,
     and Practices Associated With Agency-Sponsored
     Conferences
     We continued our evaluation of the Board’s conference-related
     activities. The objectives of our evaluation focus on determining
     the controls, policies, procedures, and practices associated with
     conferences. The review is limited to conference activities sponsored
     by the Board. We plan to issue this report during the next
     semiannual reporting period.


     Evaluation of the Board's Corporate Services
     We are conducting an evaluation of the Board’s corporate services
     function to determine the extent to which Board staff use such
     services and to identify potential efficiencies. We completed
     fieldwork for two sections of the corporate services evaluation: Mail
     Services and Motor Transport. In the Board’s 2012–2015 strategic
     framework, the sixth strategic theme is to establish a cost-reduction
     approach for Board operations that maintains an effective and
     efficient use of financial resources. Accordingly, Board divisions,
     such as the Management Division, have linked their program area
     objectives to the strategic framework and are working to identify
     opportunities for potential cost savings and to improve operational
     efficiencies. We expect to report the results of our evaluation during
     the next semiannual reporting period.


     Evaluation of Enforcement Actions Against Institution-
     Affiliated Parties
     In 2013, the OIGs for the Board, the FDIC, and the OCC initiated
     a joint evaluation of the processes for initiating enforcement actions
     and professional liability claims against institution-affiliated parties
     of failed institutions. Our objectives are to (1) describe the process
     for initiating enforcement actions against institution-affiliated
     parties for state member banks, (2) report the results of the Board’s
     efforts in pursuing enforcement actions against institution-affiliated
     parties with a focus on individuals associated with failed state
     member banks, and (3) identify key factors that may impact the
     pursuit of enforcement actions against institution-affiliated parties.




     Office of Inspector General
22
     Board of Governors of the Federal Reserve System | Consumer Financial Protection Bureau
We have completed our fieldwork and expect to issue this report
during the next semiannual reporting period.


Evaluation of the Board's Oversight of Mortgage
Servicing Enforcement Actions and Settlement
Agreements
We are conducting an evaluation of the Board’s oversight of a
settlement with mortgage servicers for alleged deficient mortgage
foreclosure practices. In January 2013, the Board and the OCC
announced a settlement with mortgage servicers to compensate
borrowers who were potentially harmed. The settlement covers
borrowers who had a mortgage on their primary residence that was
in any stage of foreclosure in 2009 or 2010 and that was serviced
by one of the participating servicers. The settlement required
mortgage servicers to slot the borrowers into various categories
based on possible harm. The Board and the OCC assigned payment
amounts to each category. The amounts range from $300 to
$125,000. A paying agent was hired by the servicers to mail checks,
totaling about $3.6 billion, to approximately 4.2 million borrowers.
Our objectives are to (1) evaluate the Board’s overall approach
to oversight of the settlement, (2) determine the effectiveness of
the Board’s oversight of the slotting process, and (3) determine
the effectiveness of the Board’s oversight of the payment process
executed by the paying agent. We have completed our fieldwork
and expect to issue our report during the next semiannual reporting
period.


Audit of the Division of Reserve Bank Operations
and Payment Systems' Oversight of Reserve Banks'
Wholesale Financial Services
We initiated an audit of the Division of Reserve Bank Operations
and Payment Systems’ (RBOPS) oversight of the Reserve Banks’
wholesale financial services. Our objective is to assess the extent and
effectiveness of RBOPS’s oversight of those services. Specifically,
we will review how RBOPS assesses wholesale services against the
standards defined in the Federal Reserve Policy on Payment System
Risk to determine whether the payment and settlement systems
incorporate (1) an appropriate risk-management framework and
(2) the internationally accepted guidelines in their policies and




Semiannual Report to Congress | October 1, 2013–March 31, 2014            23
     procedures. We have completed our fieldwork and expect to issue
     our report during the next semiannual reporting period.


     Audit of the Board's Oversight of Federal Reserve Banks'
     Law Enforcement Units
     The Uniform Regulations for Federal Reserve Law Enforcement
     Officers designated RBOPS as the external oversight function
     responsible for performing periodic reviews and evaluations of the
     Reserve Banks’ law enforcement programs and operations. Our
     objective is to assess the effectiveness of RBOPS’s reviews and
     evaluations in ensuring compliance with applicable laws, regulations,
     and policies. In addition, our audit aims to assess the overall impact
     of the oversight by reviewing the frequency and scope of RBOPS’s
     evaluations and its follow-up on evaluation recommendations.


     Audit of the Division of Banking Supervision and
     Regulation's Validation Process for Models Used During
     the Annual Comprehensive Capital Analysis and Review
     We are conducting an audit of the Division of Banking Supervision
     and Regulation’s (BS&R) model risk-management processes for the
     supervisory models used in support of the annual Comprehensive
     Capital Analysis and Review (CCAR). CCAR is an annual exercise
     by the Federal Reserve System to ensure that institutions have
     robust, forward-looking capital planning processes that account
     for their unique risks and that they have sufficient capital to
     continue operations throughout times of economic and financial
     stress. CCAR includes a supervisory stress test to support the
     Federal Reserve System’s analysis of the adequacy of the firms’
     capital. Our review assesses the overall effectiveness of the model
     risk-management framework pertaining to the supervisory models,
     including a wide spectrum of current model risk-management
     practices and the related policies and procedures. The objectives of
     our audit are to (1) assess the extent to which the Federal Reserve
     System’s model risk-management procedures for CCAR stress-
     testing supervisory models are consistent with Supervision and
     Regulation Letter 11-7 on model risk management and (2) assess
     whether the model risk-management practices are consistent with
     internal policies and procedures.




     Office of Inspector General
24
     Board of Governors of the Federal Reserve System | Consumer Financial Protection Bureau
Security Control Review of the E2 Solutions Travel
Management System
During this reporting period, we completed our fieldwork and
issued an early alert memorandum on December 20, 2013. The
E2 Solutions Travel Management System is a web-based, end-to-
end travel management system to plan, authorize, arrange, process,
and manage official federal travel. This application is listed on the
Board’s FISMA inventory as a third-party system. Our objectives
are to (1) evaluate the adequacy of certain control techniques
designed to protect data in the system from unauthorized
access, modification, destruction, or disclosure and (2) assess
compliance with Board information security program and FISMA
requirements. We expect to issue our final report during the next
semiannual reporting period.


Audit of the Board's STAR Modernization Project
We are conducting an audit of the STAR Modernization Project.
STAR is the central computer application used by the statistics
function at the Federal Reserve Banks and the Board to collect and
edit over 75 periodic statistical reports from financial institutions.
Through the STAR Modernization Project, the Board is upgrading
the system hardware, software, and functionality. Our audit focuses
on the adequacy and internal controls of the development process
for the new system, including the cost and schedule. In addition, we
are assessing how security controls are being built into the system.
We plan to issue our final report in the next semiannual reporting
period.


Audit of the Board's Information System Security Life
Cycle Process
During this period, we initiated an audit of the Board’s information
system security life cycle process. Our audit will focus on the
Board’s processes to meet FISMA requirements for security
categorization, testing, security plans, and accreditation of its
information systems. In addition, we will review how the Board’s
FISMA-related documents and review activities are compiled and
maintained.




Semiannual Report to Congress | October 1, 2013–March 31, 2014           25
     Table 1: Audit, Inspection, and Evaluation Reports Issued to the
     Board During the Reporting Period
       Title                                                                 Type of report
       Information technology audits
         Opportunities Exist to Achieve Operational Efficiencies in the      Audit
         Board’s Management of Information Technology Services
         Audit of the Board’s Data Center Relocation                         Audit
         2013 Audit of the Board’s Information Security Program              Audit
       Program audits, inspections, and evaluations
         Opportunities Exist for the Board to Improve Recordkeeping,
         Cost Estimation, and Cost Management Processes for the              Audit
         Martin Building Construction and Renovation Project
         Board of Governors of the Federal Reserve System Financial
         Statements as of and for the Years Ended December 31, 2013          Audit
         and 2012, and Independent Auditors’ Reports
         Federal Financial Institutions Examination Council Financial
         Statements as of and for the Years Ended December 31, 2013          Audit
         and 2012, and Independent Auditors’ Reports
         The Board’s Law Enforcement Unit Could Benefit From
         Enhanced Oversight and Controls to Ensure Compliance With           Inspection
         Applicable Regulations and Policies
         Transfer of Office of Thrift Supervision Functions Is Completed     Evaluation
         Response to a Congressional Request Regarding the Board’s
         Compliance with Federal Requirements for Addressing Climate Letter to
                                                                     requestor
         Change
        Total number of audit reports: 6
        Total number of inspection and evaluation reports: 2
        Total number of letters to requestor: 1




     Office of Inspector General
26
     Board of Governors of the Federal Reserve System | Consumer Financial Protection Bureau
Table 2: Audit, Inspection, and Evaluation Reports Issued to the
Board With Questioned Costs During the Reporting Perioda
 Reports                                              Number            Dollar value
 For which no management decision had
 been made by the commencement of the                            0    	$0
 reporting period
 That were issued during the reporting period                    0    	$0
 For which a management decision was made                        0    	$0
 during the reporting period
   (i)	 dollar value of recommendations that                     0    	$0
        were agreed to by management
   (ii)	dollar value of recommendations that                     0    	$0
        were not agreed to by management
 For which no management decision had been                       0    	$0
 made by the end of the reporting period
 For which no management decision was                            0    	$0
 made within six months of issuance
  a.	 Because the Board is primarily a regulatory and policymaking agency, our
      recommendations typically focus on program effectiveness and efficiency,
      as well as strengthening internal controls. As such, the monetary benefit
      associated with their implementation typically is not readily quantifiable.



Table 3: Audit, Inspection, and Evaluation Reports Issued to the
Board With Recommendations That Funds Be Put to Better Use
During the Reporting Perioda
 Reports                                              Number            Dollar value
 For which no management decision had
 been made by the commencement of the                            0    	$0
 reporting period
 That were issued during the reporting period                    0    	$0
 For which a management decision was made                        0    	$0
 during the reporting period
   (i)	 dollar value of recommendations that                     0    	$0
        were agreed to by management
   (ii)	dollar value of recommendations that                     0    	$0
        were not agreed to by management
 For which no management decision had been                       0    	$0
 made by the end of the reporting period
 For which no management decision was                            0    	$0
 made within six months of issuance
  a.	 Because the Board is primarily a regulatory and policymaking agency, our
      recommendations typically focus on program effectiveness and efficiency,
      as well as strengthening internal controls. As such, the monetary benefit
      associated with their implementation typically is not readily quantifiable.




Semiannual Report to Congress | October 1, 2013–March 31, 2014                         27
     Table 4: OIG Reports to the Board With Recommendations That
     Were Open During the Reporting Perioda
                                                                              Status of
                                                  Recommendations             recommendations




                                                                              follow-up
                                                                  disagrees




                                                                                          Closed
                                                         Mgmt.


                                                                  Mgmt.
                                                         agrees




                                                                                                   Open
                                         Issue




                                                                              date
                                                                              Last
                                                   No.
       Report title                      date
       Evaluation of Service Credit      08/05      3         3      –         09/13         2       1
       Computations
       Security Control Review of the
       FISMA Assets Maintained by        09/08     11        11      –         02/14      11         –
       the Federal Reserve Bank of
       Boston (nonpublic report)
       Evaluation of Data Flows
       for Board Employee
       Data Received by Office           09/08      2         2      –         02/14         1       1
       of Employee Benefits
       and Its Contractors
       (nonpublic report)
       Security Control Review of the
       Internet Electronic Submission    12/10      6         6      –         03/13         3       3
       System (nonpublic report)
       Response to a Congressional
       Request Regarding the             06/11      2         2      –         03/14         –       2
       Economic Analysis Associated
       with Specified Rulemakings
       Review of the Failure of Pierce   09/11      2         2      –         03/14         1       1
       Commercial Bank
       Security Control Review of the
       Visitor Registration System       09/11     10        10      –         07/13         4       6
       (nonpublic report)
       Summary Analysis of Failed        09/11      3         3      –         03/14         3       –
       Bank Reviews
       Evaluation of Prompt
       Regulatory Action                 09/11    	1b         1      –           –           –       1
       Implementation
       Audit of the Board’s              11/11      1         1      –         11/13         –       1
       Information Security Program
       Review of RBOPS’ Oversight
       of the Next Generation            01/12      2         2      –           –           –       2
       $100 Note
        a.	 A recommendation is closed if (1) the corrective action has been taken;
            (2) the recommendation is no longer applicable; or (3) the appropriate
            oversight committee or administrator has determined, after reviewing the
            position of the OIG and division management, that no further action by the
            agency is warranted. A recommendation is open if (1) division management
            agrees with the recommendation and is in the process of taking corrective
            action or (2) division management disagrees with the recommendation and
            we have referred or are referring it to the appropriate oversight committee or
            administrator for a final decision.
        b.	 This recommendation was directed jointly to the OCC, the FDIC, and the
            Board.




     Office of Inspector General
28
     Board of Governors of the Federal Reserve System | Consumer Financial Protection Bureau
Table 4: OIG Reports to the Board With Recommendations That
Were Open During the Reporting Perioda (continued)
                                                                       Status of
                                           Recommendations             recommendations




                                                                       follow-up
                                                           disagrees




                                                                                   Closed
                                                  Mgmt.


                                                           Mgmt.
                                                  agrees




                                                                                            Open
                                   Issue




                                                                       date
                                                                       Last
                                            No.
 Report title                      date
 Security Control Review
 of the National Remote           03/12      8         8      –         09/13         7       1
 Access Services System
 (nonpublic report)
 Material Loss Review of the      04/12      4         4      –         03/14         3       1
 Bank of the Commonwealth
 Security Control Review of
 the Board’s Public Website       04/12     12        12      –           –           –     12
 (nonpublic report)
 Review of the Unauthorized
 Disclosure of a Confidential
 Staff Draft of the Volcker       07/12      3         3      –         03/14         –       3
 Rule Notice of Proposed
 Rulemaking
 Security Control Review of
 the Federal Reserve Bank
 of Richmond’s Lotus Notes
 Systems Supporting the           08/12      9         9      –           –           –       9
 Board’s Division of Banking
 Supervision and Regulation
 (nonpublic report)
 Audit of the Small Community     08/12      1         1      –           –           –       1
 Bank Examination Process
 Audit of the Board’s
 Government Travel Card           09/12      4         4      –           –           –       4
 Program
 Audit of the Board’s Actions
 to Analyze Mortgage              09/12      2         2      –         03/14         1       1
 Foreclosure Processing Risks
 Security Control Review of the
 Aon Hewitt Employee Benefits     09/12      8         8      –           –           –       8
 System (nonpublic report)
 2012 Audit of the Board’s        11/12      2         2      –         11/13         –       2
 Information Security Program
  a.	 A recommendation is closed if (1) the corrective action has been taken;
      (2) the recommendation is no longer applicable; or (3) the appropriate
      oversight committee or administrator has determined, after reviewing the
      position of the OIG and division management, that no further action by the
      agency is warranted. A recommendation is open if (1) division management
      agrees with the recommendation and is in the process of taking corrective
      action or (2) division management disagrees with the recommendation and
      we have referred or are referring it to the appropriate oversight committee or
      administrator for a final decision.
  b.	 This recommendation was directed jointly to the OCC, the FDIC, and the
      Board.




Semiannual Report to Congress | October 1, 2013–March 31, 2014                                     29
     Table 4: OIG Reports to the Board With Recommendations That
     Were Open During the Reporting Perioda (continued)
                                                                              Status of
                                                  Recommendations             recommendations




                                                                              follow-up
                                                                  disagrees




                                                                                          Closed
                                                         Mgmt.


                                                                  Mgmt.
                                                         agrees




                                                                                                   Open
                                         Issue




                                                                              date
                                                                              Last
                                                   No.
       Report title                      date
       Security Control Review
       of Contingency Planning
       Controls for the Information      12/12      5         5      –           –           –       5
       Technology General Support
       System (nonpublic report)
       Review of the Failure of Bank     03/13      1         1      –         03/14         –       1
       of Whitman
       Controls over the Board’s
       Purchase Card Program Can         03/13      3         3      –           –           –       3
       Be Strengthened
       Board Should Enhance
       Compliance with Small
       Entity Compliance Guide
       Requirements Contained in         07/13      2         2      –           –           –       2
       the Small Business Regulatory
       Enforcement Fairness Act
       of 1996
       Security Control Review
       of the Board’s National           07/13      4         4      –           –           –       4
       Examination Database System
       (nonpublic report)
       Security Control Review of a
       Third-party Commercial Data
       Exchange Service Used by the      08/13     11        11      –           –           –     11
       Board’s Division of Banking
       Supervision and Regulation
       (nonpublic report)
       Board Should Strengthen
       Controls over the Handling        08/13      4         4      –           –           –       4
       of the Federal Open Market
       Committee Meeting Minutes
       The Board Can Benefit
       from Implementing an
       Agency-Wide Process for           09/13      1         1      –           –           –       1
       Maintaining and Monitoring
       Administrative Internal
       Control
        a.	 A recommendation is closed if (1) the corrective action has been taken;
            (2) the recommendation is no longer applicable; or (3) the appropriate
            oversight committee or administrator has determined, after reviewing the
            position of the OIG and division management, that no further action by the
            agency is warranted. A recommendation is open if (1) division management
            agrees with the recommendation and is in the process of taking corrective
            action or (2) division management disagrees with the recommendation and
            we have referred or are referring it to the appropriate oversight committee or
            administrator for a final decision.
        b.	 This recommendation was directed jointly to the OCC, the FDIC, and the
            Board.




     Office of Inspector General
30
     Board of Governors of the Federal Reserve System | Consumer Financial Protection Bureau
Table 4: OIG Reports to the Board With Recommendations That
Were Open During the Reporting Perioda (continued)
                                                                       Status of
                                           Recommendations             recommendations




                                                                       follow-up
                                                           disagrees




                                                                                   Closed
                                                  Mgmt.


                                                           Mgmt.
                                                  agrees




                                                                                            Open
                                   Issue




                                                                       date
                                                                       Last
                                            No.
 Report title                      date
 The Board Should Improve
 Procedures for Preparing for     09/13      7         7      –           –           –       7
 and Responding to Emergency
 Events
 2013 Audit of the Board's        11/13      2         2      –           –           –       2
 Information Security Program
 Audit of the Board’s Data        02/14      2         2      –           –           –       2
 Center Relocation
 Opportunities Exist to Achieve
 Operational Efficiencies in
 the Board's Management           02/14      2         2      –           –           –       2
 of Information Technology
 Services
 The Board’s Law Enforcement
 Unit Could Benefit From
 Enhanced Oversight               03/14     10        10      –           –           –     10
 and Controls to Ensure
 Compliance With Applicable
 Regulations and Policies
 Opportunities Exist for
 the Board to Improve
 Recordkeeping, Cost
 Estimation, and Cost             03/14      6         6      –           –           –       6
 Management Processes
 for the Martin Building
 Construction and Renovation
 Project
  a.	 A recommendation is closed if (1) the corrective action has been taken;
      (2) the recommendation is no longer applicable; or (3) the appropriate
      oversight committee or administrator has determined, after reviewing the
      position of the OIG and division management, that no further action by the
      agency is warranted. A recommendation is open if (1) division management
      agrees with the recommendation and is in the process of taking corrective
      action or (2) division management disagrees with the recommendation and
      we have referred or are referring it to the appropriate oversight committee or
      administrator for a final decision.
  b.	 This recommendation was directed jointly to the OCC, the FDIC, and the
      Board.




Semiannual Report to Congress | October 1, 2013–March 31, 2014                                     31
     Consumer Financial Protection Bureau

     Completed Projects

     The CFPB Can Improve the Efficiency and Effectiveness of
     Its Supervisory Activities
     OIG Report No. 2014-AE-C-005	                                            March 27, 2014

     We conducted this evaluation to assess the operational efficiency
     and effectiveness of the CFPB’s supervision program. The CFPB’s
     supervision activities include prioritizing, scheduling, planning,
     and executing examinations and reporting findings in the form of
     reports of examination or supervisory letters. Our objectives for
     this evaluation included (1) reviewing key program elements, such
     as policies and procedures, examination guidance, and controls to
     promote consistent and timely reporting; (2) assessing the approach
     for staffing examinations; and (3) assessing the training program for
     examination staff.
     Since it began operations in July 2011, the CFPB has made
     significant progress toward developing and implementing
     a comprehensive supervision program for depository and
     nondepository institutions. The agency has implemented this
     program on a nationwide basis across its four regional offices.
     While we recognize the considerable efforts associated with the
     initial development and implementation of the program, we believe
     that the CFPB can improve the efficiency and effectiveness of its
     supervisory activities. Specifically, we found that the CFPB needs
     to (1) improve its reporting timeliness and reduce the number of
     examination reports that have not been issued, (2) adhere to its
     unequivocal standards concerning the use of standard compliance
     rating definitions in its examination reports, and (3) update its
     policies and procedures to reflect current practices.
     We completed our fieldwork in October 2013, using data as of
     July 31, 2013. Following the completion of our fieldwork, senior
     CFPB officials indicated that management had taken various
     measures to address certain findings in our report, including
     streamlining the report review process and reducing the number of
     examination reports that had not been issued. As part of our future




     Office of Inspector General
32
     Board of Governors of the Federal Reserve System | Consumer Financial Protection Bureau
follow-up activities, we will assess whether these actions, as well as
the planned actions described in management’s response, address
our findings and recommendations.
We made 12 recommendations designed to assist the CFPB in
strengthening its supervision program. We recommended that the
CFPB create and update relevant policies and procedures; track
and monitor examination processes for staffing examinations
and producing examination products; and finalize its examiner
commissioning program. Management concurred with our
recommendations and outlined actions that have been taken or will
be implemented to address our recommendations.


The CFPB Should Reassess Its Approach to Integrating
Enforcement Attorneys Into Examinations and Enhance
Associated Safeguards
OIG Report No. 2013-AE-C-021	                                    December 16, 2013

We conducted an evaluation of the CFPB’s integration of
enforcement attorneys into its examinations of depository and
nondepository institutions’ compliance with applicable laws and
regulations. Our objectives were to assess (1) the potential risks
associated with the CFPB’s approach to integrating enforcement
attorneys into examinations and (2) the effectiveness of any
safeguards that the CFPB adopted to mitigate the potential risks
associated with this examination approach.
We found that the CFPB should determine the appropriate
level of enforcement attorney integration into examinations by
reassessing the potential risks associated with the practice against
the potential benefits and document the results of the assessment.
Our evaluation results indicated that the CFPB’s February 2012
policy describing the general principles of the integrated approach
did not sufficiently detail how the approach should be implemented
and was not uniformly distributed to CFPB supervision and
enforcement staff. As a result, CFPB supervision and enforcement
staff ’s awareness, understanding, and execution of the policy, as well
as their messaging to supervised institutions concerning the role of
enforcement attorneys, varied considerably. During our evaluation,
we also learned that enforcement attorneys did not receive formal
training on the CFPB’s examination process and that the CFPB
lacked a policy on enforcement attorneys’ access to institutions’




Semiannual Report to Congress | October 1, 2013–March 31, 2014                       33
     systems during examinations. In addition, we learned that the
     CFPB reorganized its supervision function in December 2012
     and established points of contact within the Office of Supervision
     Policy to address legal questions that arise during examinations, in
     part to ensure more consistent interpretations of applicable laws
     or regulations. As of the end of our fieldwork, August 2013, the
     CFPB had not updated its February 2012 policy describing the
     integrated approach to reflect changes to the process for resolving
     legal questions.
     When we commenced our evaluation, the CFPB informed us
     that it had initiated an internal review to evaluate its approach
     to integrating enforcement attorneys into examinations. During
     our evaluation, we routinely met with CFPB senior officials and
     shared our preliminary observations concerning the integrated
     approach, including its potential risks. In October 2013, when
     our draft report was nearing completion, CFPB senior officials
     informed us that the agency had finalized its internal review and
     had reconsidered its approach regarding integrating enforcement
     attorneys into examinations. According to CFPB senior officials,
     new policies and procedures reflecting the revised approach became
     effective in November 2013, which was outside the scope of our
     evaluation. Thus, our report reflects our assessment of the CFPB’s
     February 2012 policy related to the integrated approach.
     We made seven recommendations. The CFPB indicated that
     it had taken actions or has planned activities to address our
     recommendations.


     2013 Audit of the CFPB's Information Security Program
     OIG Report No. 2013-IT-C-020	                                        December 2, 2013

     To meet our annual FISMA reporting responsibilities, we reviewed
     the information security program and practices of the CFPB.
     FISMA requires federal agencies to develop, document, and
     implement an agency-wide information security program. FISMA
     also requires each IG to conduct an annual independent evaluation
     of the agency’s information security program and practices.
     Overall, we found that the CFPB has taken multiple steps over
     the past year to develop, document, and implement an information
     security program that is consistent with FISMA requirements. The




     Office of Inspector General
34
     Board of Governors of the Federal Reserve System | Consumer Financial Protection Bureau
CFPB has also taken several actions to strengthen its information
security program in the 11 areas outlined in DHS’s 2013 FISMA
reporting guidance for IGs. We found that the CFPB’s information
security program is generally consistent with the requirements
outlined in DHS’s FISMA reporting guidance for IGs in 6 out
of 11 information security areas: identity and access management,
incident response and reporting, risk management, plan of action
and milestones, remote access management, and contractor systems.
We identified opportunities to improve the CFPB’s information
security program through automation, centralization, and other
enhancements to ensure that key DHS requirements for continuous
monitoring, configuration management, and security training are
met. We also identified improvements needed in contingency
planning for a select system we reviewed and found that while the
CFPB had not met several security capital planning requirements
outlined in DHS’s FISMA reporting guidance, it was taking
sufficient actions to establish a security capital planning program.
Further, while we found the CFPB’s information security program
to be generally consistent with DHS’s requirements for incident
response and reporting, we identified opportunities to strengthen
CFPB’s incident correlation processes.
We made four recommendations designed to assist the CFPB
in strengthening its information security program in the areas
of continuous monitoring, configuration management, security
training, and incident response and reporting. The CFPB’s Chief
Information Officer concurred with our recommendations and
outlined actions that have been taken, are underway, and are planned
to strengthen CFPB’s information security program.


Audit of the CFPB's Civil Penalty Fund
OIG Report No. 2014-AE-C-001	                                    January 16, 2014

The Dodd-Frank Act required the CFPB to establish the Civil
Penalty Fund (CPF). The CFPB must deposit any civil penalty it
obtains against any person in any judicial or administrative action
under federal consumer financial law into this separate fund,
which is maintained in an account at the Federal Reserve Bank of
New York. The CFPB will use the money collected in the CPF to
compensate consumers who were harmed by activities for which
civil penalties have been imposed. To the extent that victims cannot




Semiannual Report to Congress | October 1, 2013–March 31, 2014                      35
     be located or payment is not practicable, the CFPB may use the
     funds for consumer education and financial literacy programs.
     Our objective for this audit was to determine whether the CFPB
     had developed controls to implement the statutory provisions
     concerning the CPF.
     Overall, our audit determined that the CFPB has been
     implementing internal controls for the CPF since June 2012.
     For example, the CFPB developed a CPF rule as well as internal
     procedures titled Procedures for Civil Penalty Fund Administration.
     We determined, however, that the CFPB can clarify its internal
     procedures. The U.S. Government Accountability Office’s Standards
     for Internal Control in the Federal Government states that internal
     controls should be clearly documented. The current practice of
     the Fund Administrator is to obtain case-related information in
     writing; however, the CFPB’s Procedures for Civil Penalty Fund
     Administration does not state that case-related information should
     be collected in writing. During our audit, we also observed that
     information on the CPF was not consolidated in a single location
     on the CFPB’s public website. We relayed this observation to CFPB
     officials, who took steps to consolidate the CPF information on the
     CFPB’s public website.
     We made one recommendation. The CFPB indicated that it had
     taken actions to address our recommendation.


     Observations and Matters for Consideration Regarding
     the CFPB's Annual Budget Process
     OIG Report No. 2013-AE-C-018	                                         October 22, 2013

     We completed an evaluation of the CFPB’s budget process related
     to the agency’s fiscal year (FY) 2013 budget. Our objective was to
     evaluate the extent to which the CFPB’s budget process facilitated
     the achievement of the agency’s goals and performance objectives,
     including transparency to the public. We focused our review on the
     CFPB’s initial FY 2013 and revised FY 2012 budgets presented in
     the agency’s FY 2013 budget justification issued in February 2012.
     Overall, our evaluation showed that the CFPB has a budget process
     in place to facilitate the achievement of its goals and performance
     objectives, including transparency to the public. For example, we
     found that the CFPB linked the budget we reviewed to strategic




     Office of Inspector General
36
     Board of Governors of the Federal Reserve System | Consumer Financial Protection Bureau
principles and developed policies to link future budgets to the
strategic plan. Further, as part of the budget formulation process, the
CFPB estimated by quarter the amount of funds to be provided by
the Federal Reserve System and then, each quarter, reviewed these
estimates and the agency’s financial position. We also found that the
CFPB presented budgetary information to the public, posting on its
website its first annual performance plan in February 2012 and its
draft strategic plan in September 2012.
We did not make any formal recommendations; however, we noted
opportunities for the CFPB to enhance its practices related to
preparing funding requests and posting budget-related information
on its website. The agency informed us that it had continued to
improve and refine its budget process since the completion of our
fieldwork and had taken actions to address our observations.


Response to a Congressional Request Regarding the
CFPB's Compliance with Federal Requirements for
Addressing Climate Change
October 29, 2013

The OIG responded to a letter from the co-chairs of the Bicameral
Task Force on Climate Change regarding the actions taken in
response to climate change by the agencies we oversee. As the
oversight entity for the CFPB, we responded to the Task Force’s
letter requesting the identification of existing requirements in
legislation, regulations, executive orders, and other directives that
apply to the CFPB and our assessment of how the CFPB is meeting
these requirements. The Task Force also requested an assessment
of the agency’s authorities to reduce emissions of heat-trapping
pollution and to make the nation more resilient to the effects of
climate change.
The CFPB’s Legal Division is responsible for determining the
federal climate change requirements to which the CFPB is
subject. The CFPB’s Legal Division identified that the Energy
Independence and Security Act of 2007, the Energy Policy Act
of 2005, Executive Order 13514, and Executive Order 13423
apply to the agency. CFPB officials described the climate change
initiatives the CFPB has taken to comply with applicable climate
change requirements. In our letter addressing the Task Force’s
request, we summarized the CFPB’s response to our inquiry. The




Semiannual Report to Congress | October 1, 2013–March 31, 2014            37
     CFPB did not identify any authorities it has to reduce emissions
     from heat-trapping pollution or to make the nation more resilient
     to the effects of climate change. The CFPB did not identify any
     additional steps that it could take to reduce emissions or strengthen
     resiliency. We recognize the financial and environmental risks
     that climate change poses to the federal government, and we will
     consider additional reviews of the CFPB’s climate change initiatives
     during our annual planning process.


     Work in Progress

     Evaluation of the CFPB's Headquarters Renovation
     Project
     We initiated an evaluation of the CFPB’s headquarters renovation
     budget in response to a request from the Chairman of the
     Subcommittee on Oversight and Investigations, House Committee
     on Financial Services. To address this congressional request, our
     objectives are to evaluate, with respect to the CFPB’s headquarters
     renovation project, (1) the capital budgeting and approval process,
     (2) the scope and justification for cost estimates, and (3) the use of
     competitive procedures. We expect to complete this evaluation and
     issue our final report in the next semiannual reporting period.


     Audit of the CFPB's Contract Management Process
     We initiated an audit of the CFPB’s contract management process.
     The CFPB’s procurement process follows the requirements
     established by the Federal Acquisition Regulation, which is the
     primary regulation governing the acquisition of supplies and
     services by federal executive agencies. This audit will focus on the
     CFPB’s contract management processes, compliance with applicable
     rules established by the Federal Acquisition Regulation, and the
     effectiveness of the CFPB’s internal controls related to contract
     management. We expect to complete this audit and issue our report
     by the end of the calendar year.




     Office of Inspector General
38
     Board of Governors of the Federal Reserve System | Consumer Financial Protection Bureau
Audit of the CFPB's Public Consumer Complaint Database
We initiated an audit of the CFPB’s public consumer complaint
database. Since June 2012, the CFPB has publicly shared
individual-level consumer complaint data. While the public
consumer complaint database initially contained only credit card
complaints, it has since been expanded to include complaints about
other consumer financial products and services regulated by the
CFPB, such as mortgages and credit reporting. This audit will focus
on the CFPB’s controls for managing the consumer complaint
database and will assess the accuracy and completeness of the
consumer complaint data that are available to the public. We expect
to complete fieldwork for this audit during the next semiannual
reporting period.


Evaluation of the CFPB's Hiring Process
We concluded our fieldwork for the evaluation of the CFPB’s
hiring process. The objective of our evaluation is to assess the
efficiency and effectiveness of three CFPB recruitment and
selection subprocesses: (1) personnel assessment methodology
and vacancy announcement creation, (2) hiring authority and
vacancy announcement posting, and (3) evaluation and selection of
candidates. We also assessed the agency’s compliance with certain
laws, applicable regulations, and policies and its administration
of recruitment and selection incentives to recruit new employees.
We plan to issue our report during the next semiannual reporting
period.


Audit of the CFPB's Cloud Computing Environment
During this reporting period, we modified the scope of our ongoing
audit of the CFPB’s cloud computing environment to include
our participation in a governmentwide initiative coordinated by
CIGIE. The CIGIE project will focus on evaluating agencies’
efforts to adopt cloud computing technologies and to review
executed contracts between agencies and cloud service providers for
compliance with applicable standards. We will continue to review
actions taken by the CFPB to implement best practices stipulated in
NIST guidance for implementing and managing cloud computing
technologies. Information gathered during the CIGIE project




Semiannual Report to Congress | October 1, 2013–March 31, 2014        39
     will be incorporated into a governmentwide report to be released
     by CIGIE. We expect to complete this project and issue our own
     report on the CFPB’s cloud computing environment in the next
     semiannual reporting period.


     Audit of a CFPB Cloud Provider
     During this period, we completed our fieldwork and briefed CFPB
     management on our security control review of a third-party provider
     of the CFPB’s cloud environment. Our audit objectives are to
     (1) evaluate the adequacy of certain control techniques designed to
     protect data from unauthorized access, modification, destruction,
     or disclosure and (2) assess compliance with the CFPB’s security-
     related policies and FISMA requirements. We expect to issue this
     report during the next semiannual reporting period.


     Evaluation of the CFPB's Compliance With Section 1100G
     of the Dodd-Frank Act
     We have completed our fieldwork to assess the CFPB’s compliance
     with the section 1100G requirements of the Dodd-Frank Act.
     Section 1100G amends the Small Business Regulatory Enforcement
     Fairness Act of 1996 and the Regulatory Flexibility Act to require
     the CFPB to assess a proposed rule’s economic impact and the
     cost of credit for small entities. Among other requirements, the
     CFPB must perform a regulatory flexibility analysis that includes
     a description of (1) any projected increase in the cost of credit for
     small entities, (2) any significant alternatives to the proposed rule
     that accomplish the stated objectives of applicable statutes and that
     minimize any increase in the cost of credit for small entities, and
     (3) the advice and recommendations of representatives of small
     entities relating to issues associated with the projected increases or
     alternatives. We expect to complete our evaluation during the next
     semiannual reporting period.


     Audit of the CFPB's Activities Under the Government
     Performance and Results Act
     We continued our audit of the CFPB’s initiatives under the
     Government Performance and Results Act of 1993, as amended
     by the GPRA Modernization Act of 2010 (collectively, GPRA),




     Office of Inspector General
40
     Board of Governors of the Federal Reserve System | Consumer Financial Protection Bureau
which is part of a legislative framework to instill performance-based
management across federal government agencies. GPRA requires
agencies to establish a management system to set agency goals for
program performance and to measure results against those goals.
Agencies must incorporate the performance management concepts
of strategic planning and performance measurement into their
planning and budgeting processes and issue associated performance
plans and reports. The objectives of this audit are to assess the
CFPB’s compliance with applicable sections of GPRA and the
effectiveness of processes that address GPRA requirements. We
have completed our fieldwork and will issue our report during the
next semiannual reporting period.


Audit of the CFPB's Space-Planning Activities
During this reporting period, we initiated an audit to assess the
CFPB’s short-term and long-term space-planning activities to
determine whether controls are in place to effectively manage the
agency’s space needs and associated costs. Our audit will focus on
the CFPB’s processes for planning, obtaining, and managing space
for both its headquarters and regional offices, to include how the
agency manages its transition to new office space. We are currently
conducting fieldwork and expect to complete this audit and issue
our report in 2014.

Table 5: Audit, Inspection, and Evaluation Reports Issued to the
CFPB During the Reporting Period
 Title                                                            Type of report
 Program audits, inspections, and evaluations
   Audit of the CFPB’s Civil Penalty Fund                         Audit
   2013 Audit of the CFPB’s Information Security Program          Audit
   Observations and Matters for Consideration Regarding the       Evaluation
   CFPB’s Annual Budget Process
   The CFPB Can Improve the Efficiency and Effectiveness of Its   Evaluation
   Supervisory Activities
   The CFPB Should Reassess Its Approach to Integrating
   Enforcement Attorneys Into Examinations and Enhance            Evaluation
   Associated Safeguards
   Response to a Congressional Request Regarding the CFPB’s
   Compliance with Federal Requirements for Addressing Climate Letter to
                                                               requestor
   Change
  Total number of audit reports: 2
  Total number of inspection and evaluation reports: 3
  Total number of letters to requestor: 1




Semiannual Report to Congress | October 1, 2013–March 31, 2014                     41
     Table 6: Audit, Inspection, and Evaluation Reports Issued to the
     CFPB With Questioned Costs During the Reporting Perioda
       Reports                                               Number             Dollar value
       For which no management decision had
       been made by the commencement of the             	0                   	$0
       reporting period
       That were issued during the reporting period     	0                   	$0
       For which a management decision was made         	0                   	$0
       during the reporting period
         (i)	 dollar value of recommendations that      	0                   	$0
              were agreed to by management
         (ii)	dollar value of recommendations that      	0                   	$0
              were not agreed to by management
       For which no management decision had been 	0                          	$0
       made by the end of the reporting period
       For which no management decision was             	0                   	$0
       made within six months of issuance
        a.	 Because the CFPB is primarily a regulatory and policymaking agency, our
            recommendations typically focus on program effectiveness and efficiency,
            as well as strengthening internal controls. As such, the monetary benefit
            associated with their implementation typically is not readily quantifiable.




     Table 7: Audit, Inspection, and Evaluation Reports Issued to the
     CFPB With Recommendations That Funds Be Put to Better Use
     During the Reporting Perioda
       Reports                                               Number             Dollar value
       For which no management decision had
       been made by the commencement of the             	0                   	$0
       reporting period
       That were issued during the reporting period     	0                   	$0
       For which a management decision was made         	0                   	$0
       during the reporting period
         (i)	 dollar value of recommendations that      	0                   	$0
              were agreed to by management
         (ii)	dollar value of recommendations that      	0                   	$0
              were not agreed to by management
       For which no management decision had been 	0                          	$0
       made by the end of the reporting period
       For which no management decision was             	0                   	$0
       made within six months of issuance
        a.	 Because the CFPB is primarily a regulatory and policymaking agency, our
            recommendations typically focus on program effectiveness and efficiency,
            as well as strengthening internal controls. As such, the monetary benefit
            associated with their implementation typically is not readily quantifiable.




     Office of Inspector General
42
     Board of Governors of the Federal Reserve System | Consumer Financial Protection Bureau
Table 8: OIG Reports to the CFPB With Recommendations That Were
Open During the Reporting Perioda
                                                                        Status of
                                           Recommendations             recommendations




                                                                       follow-up
                                                           disagrees




                                                                                   Closed
                                                  Mgmt.


                                                           Mgmt.
                                                  agrees




                                                                                            Open
                                   Issue




                                                                       date
                                                                       Last
                                            No.
 Report title                      date
 Evaluation of the Consumer
 Financial Protection Bureau’s    09/12       5        5      –         08/13         3       2
 Consumer Response Unit
 2012 Audit of the Consumer
 Financial Protection Bureau’s    11/12       3        3      –         12/13         3       –
 Information Security Program
 Security Control Review
 of the Consumer Financial
 Protection Bureau’s Consumer     03/13       9        9      –         03/14         8       1
 Response System (nonpublic
 report)
 CFPB Contract Solicitation
 and Selection Processes
 Facilitate FAR Compliance,       03/13       3        3      –           –           –       3
 but Opportunities Exist to
 Strengthen Internal Controls
 Opportunities Exist to
 Enhance the CFPB’s Policies,     08/13       4        4      –           –           –       4
 Procedures, and Monitoring
 Activities for Conferences
 The CFPB Should Strengthen
 Internal Controls for Its
 Government Travel Card           09/13      14       14      –         01/14         3     11
 Program to Ensure Program
 Integrity
 Opportunities Exist for
 the CFPB to Strengthen           09/13       2        2      –         01/14         2       –
 Compliance with Its Purchase
 Card Policies and Procedures
 2013 Audit of the CFPB’s         12/13       4        4      –           –           –       4
 Information Security Program
 The CFPB Should Reassess
 Its Approach to Integrating
 Enforcement Attorneys Into       12/13       7        7      –           –           –       7
 Examinations and Enhance
 Associated Safeguards
  a.	 A recommendation is closed if (1) the corrective action has been taken;
      (2) the recommendation is no longer applicable; or (3) the appropriate
      oversight committee or administrator has determined, after reviewing the
      position of the OIG and division management, that no further action by the
      agency is warranted. A recommendation is open if (1) division management
      agrees with the recommendation and is in the process of taking corrective
      action or (2) division management disagrees with the recommendation and
      we have referred or are referring it to the appropriate oversight committee or
      administrator for a final decision.




Semiannual Report to Congress | October 1, 2013–March 31, 2014                                     43
     Table 8: OIG Reports to the CFPB With Recommendations That Were
     Open During the Reporting Perioda (continued)
                                                                               Status of
                                                  Recommendations             recommendations




                                                                              follow-up
                                                                  disagrees




                                                                                          Closed
                                                         Mgmt.


                                                                  Mgmt.
                                                         agrees




                                                                                                   Open
                                         Issue




                                                                              date
                                                                              Last
                                                   No.
       Report title                      date
       Audit of the CFPB’s Civil         01/14       1        1      –           –           –       1
       Penalty Fund
       The CFPB Can Improve the
       Efficiency and Effectiveness of   03/14      12       12      –           –           –     12
       Its Supervisory Activities
        a.	 A recommendation is closed if (1) the corrective action has been taken;
            (2) the recommendation is no longer applicable; or (3) the appropriate
            oversight committee or administrator has determined, after reviewing the
            position of the OIG and division management, that no further action by the
            agency is warranted. A recommendation is open if (1) division management
            agrees with the recommendation and is in the process of taking corrective
            action or (2) division management disagrees with the recommendation and
            we have referred or are referring it to the appropriate oversight committee or
            administrator for a final decision.




     Office of Inspector General
44
     Board of Governors of the Federal Reserve System | Consumer Financial Protection Bureau
Failed State Member
Bank Reviews
Material Loss Reviews
Section 38(k) of the FDI Act requires that the IG of the
appropriate federal banking agency complete a review of the
agency’s supervision of a failed institution and issue a report within
six months of notification from the FDIC OIG that the projected
loss to the DIF is material. Under section 38(k) of the FDI Act, a
material loss to the DIF is defined as an estimated loss in excess of
$150 million for the period January 1, 2012, through December 31,
2013; for all such losses occurring on or after January 1, 2014, the
materiality threshold is $50 million.
The material loss review provisions of section 38(k) require that the
IG do the following:
  •	 review the institution’s supervision, including the agency’s
     implementation of prompt corrective action
  •	 ascertain why the institution’s problems resulted in a material
     loss to the DIF
  •	 make recommendations for preventing any such loss in the
     future
We did not conduct any material loss reviews during this reporting
period.



Nonmaterial Loss Reviews
The FDI Act, as amended by the Dodd-Frank Act, requires the IG
of the appropriate federal banking agency to report, on a semiannual
basis, certain information on financial institutions that incurred
nonmaterial losses to the DIF and that failed during the respective
six-month period.




Semiannual Report to Congress | October 1, 2013–March 31, 2014           45
     When bank failures result in nonmaterial losses to the DIF, the IG
     is required to determine (1) the grounds identified by the federal
     banking agency or the state bank supervisor for appointing the
     FDIC as receiver and (2) whether the losses to the DIF present
     unusual circumstances that would warrant an in-depth review.
     Generally, the in-depth review process is the same as that for
     material loss reviews, but in-depth reviews are not subject to the
     six-month reporting deadline.
     The IG must semiannually report the dates when each such
     review and report will be completed. If an in-depth review is not
     warranted, the IG is required to provide an explanation of this
     determination. In general, we consider a loss to the DIF to present
     unusual circumstances if the conditions associated with the bank’s
     deterioration, ultimate closure, and supervision were not addressed
     in any of our prior bank failure reports or involved potentially
     fraudulent activity.
     During this reporting period, we continued our in-depth review
     of the failure of Waccamaw Bank (described below). There were
     no nonmaterial state member bank failures during this reporting
     period.


     In-Depth Review of the Failure of Waccamaw Bank
     On June 8, 2012, the North Carolina Office of the Commissioner of
     Banks closed Waccamaw Bank and appointed the FDIC as receiver.
     According to the FDIC’s press release, as of March 31, 2012,
     Waccamaw Bank had approximately $533.1 million in total assets
     and $472.7 million in total deposits. On June 8, 2012, the FDIC
     estimated that the cost to the DIF from Waccamaw Bank’s closure
     will be $51.1 million, which did not meet the materiality threshold
     as defined under section 38(k) of the FDI Act.
     Based on the results of its failed bank review, the OIG determined
     that the failure of Waccamaw Bank was due to circumstances that
     have been covered in past OIG reports. However, the failed bank
     review also identified three unusual circumstances that warranted
     an in-depth review of Waccamaw Bank: (1) Waccamaw Bank
     appears to have misinformed regulators about key aspects of an
     asset swap transaction that significantly changed its risk profile
     and financial condition; (2) Waccamaw Bank initiated a series of




     Office of Inspector General
46
     Board of Governors of the Federal Reserve System | Consumer Financial Protection Bureau
appeals related to the examiners’ recommended regulatory capital
treatment of a transaction, which ultimately reached the highest
level of appellate review by a Board Governor; and (3) there were
unique circumstances surrounding the retirement of Waccamaw
Bank’s former President and Chief Executive Officer (CEO). As a
result, we initiated an in-depth review that focuses on these three
unusual circumstances. We plan to issue our report during the next
semiannual reporting period.




Semiannual Report to Congress | October 1, 2013–March 31, 2014        47
Investigations
The OIG’s Office of Investigations conducts criminal, civil, and
administrative investigations related to Board and CFPB programs
and operations. The OIG operates under statutory law enforcement
authority granted by the U.S. Attorney General, which vests our
Special Agents with the authority to carry firearms, seek and
execute search and arrest warrants, and make arrests without a
warrant in certain circumstances. OIG investigations are conducted
in compliance with CIGIE’s Quality Standards for Investigations and
the Attorney General Guidelines for Offices of Inspector General with
Statutory Law Enforcement Authority.



State Member Banks
The Board is responsible for supervising and regulating state-
chartered member banks that are members of the Federal Reserve
System. Under delegated authority from the Board, the Federal
Reserve Banks execute the day-to-day supervision of state member
banks, and BS&R is responsible for overseeing the Reserve Banks’
supervisory activities. Our office’s investigations concerning state
member banks typically involve allegations that bank officers have
falsified financial records, lied to or misled examiners, or obstructed
examinations in a manner that may have affected the Board’s ability
to carry out its supervisory and regulatory responsibility over state
member banks. Such activity may result in criminal violations, such
as false statements or obstruction of a bank examination.
Our office’s investigative efforts in such cases typically consist of
interviewing witnesses and subjects; identifying and obtaining
critical Board documents; issuing subpoenas; analyzing financial
records; and coordinating work between the U.S. Department of
Justice, other law enforcement partners, and Board and Reserve
Bank staff. Examples of investigations affecting the Board’s ability
to carry out its supervisory and regulatory responsibilities over state
member banks are provided below; however, due to prosecutorial
discretion and the nature of the investigative process, certain
criminal allegations investigated by our office may not appear in
U.S. Department of Justice indictments or plea agreements.




Semiannual Report to Congress | October 1, 2013–March 31, 2014            49
     Former CEO of the Bank of the Commonwealth
     Sentenced to 23 Years in Prison for Fraud
     On November 6, 2013, the former CEO and Chairman of the
     Board for the Bank of the Commonwealth, Norfolk, Virginia, was
     sentenced to 23 years in prison, followed by 5 years of supervised
     release, for conspiracy to commit bank fraud, false entry in a bank
     record, unlawful participation in loans, false statements to a financial
     institution, misapplication of bank funds, and bank fraud. The court
     further ordered the defendant to pay $333,569,732 in restitution to
     the FDIC. The defendant was found guilty on May 24, 2013, after a
     10-week jury trial.
     Evidence presented at trial demonstrated that the defendant
     engaged in an illegal reciprocal relationship with certain troubled
     borrowers to mask the bank’s deteriorating financial condition.
     Other conspirators testified at trial that, at the request of the
     defendant and another bank executive, they performed favors,
     such as buying Bank of the Currituck stock, bailing out the
     defendant’s son on bad investments, and purchasing bank-owned
     property with fully funded Bank of the Commonwealth loans. In
     return, they received preferential treatment, such as being afforded
     large overdrafts, sometimes for hundreds of thousands of dollars,
     at below-market interest rates; granted loans to make interest
     payments on other loans; and provided easy access to credit.
     Additionally, the defendant funded, without the approval of the
     bank’s board of directors, three loans totaling $11 million to another
     troubled borrower who was in bankruptcy and was the subject of
     a federal grand jury investigation. Later, the defendant made false
     entries in bank records to conceal the fact that he authorized the
     funding of these loans without proper approval.
     The defendant’s crimes contributed to the failure of the Bank of the
     Commonwealth on September 23, 2011. As a result of this failure,
     the FDIC’s DIF has sustained at least $333 million in losses.
     The case was the result of a joint investigation by the Board-CFPB
     OIG, the Federal Bureau of Investigation (FBI), the Internal
     Revenue Service–Criminal Investigation Division, SIGTARP, and
     the FDIC OIG. This case was prosecuted by the U.S. Attorney’s
     Office for the Eastern District of Virginia.




     Office of Inspector General
50
     Board of Governors of the Federal Reserve System | Consumer Financial Protection Bureau
Former Vice President of Fifth Third Bank Charged in
Scheme to Defraud
On February 19, 2014, the U.S. Attorney’s Office for the Middle
District of Florida charged a former Vice President of Fifth
Third Bank, Jacksonville, Florida, with one count of bank fraud.
Fifth Third Bank is a state member bank with its headquarters
in Cincinnati, Ohio. The defendant was employed by Fifth Third
Bank for six years and served as a Vice President in 2009.
According to the charges, the defendant engaged in a four-year
scheme to defraud the bank, whereby he embezzled a total of
approximately $10,542,374 from the accounts of one major
corporate bank customer and two retail bank customers. The
defendant allegedly embezzled funds from individuals’ and
corporate customers’ accounts for his personal and other uses,
including making home mortgage payments, installing a pool at
his home, and other personal living expenses; funding off-the-book
loans for customers who had previous loan requests denied; making
off-the-book interest payments on the off-the-book loans; paying
off troubled loans in his portfolio of customers; and depositing
the embezzled funds into other customers’ deposit accounts to
fraudulently bolster the customers’ creditworthiness.
This is a joint investigation by the Board-CFPB OIG, the FBI,
and Fifth Third Bank’s Protection Division. This case is being
prosecuted by the U.S. Attorney’s Office for the Middle District of
Florida.



Bank Holding Companies
The Board is responsible for supervising and regulating bank
holding companies, including financial holding companies formed
under the Gramm-Leach-Bliley Act, on a consolidated basis. Under
delegated authority from the Board, the Federal Reserve Banks
execute the day-to-day supervision of bank and financial holding
companies, and BS&R is responsible for overseeing the Reserve
Bank’s supervisory activities. Our office’s investigations concerning
bank holding companies typically involve allegations that holding
company directors or officers falsified financial records, lied to or
misled examiners, or obstructed examinations in a manner that




Semiannual Report to Congress | October 1, 2013–March 31, 2014          51
     may have affected the Board’s ability to carry out its supervisory
     and regulatory responsibilities over bank holding companies. Such
     activity may result in criminal violations, such as false statements or
     obstruction of a bank examination.
     Our office’s investigative efforts in such cases typically consist
     of conducting witness and subject interviews; identifying and
     obtaining critical Board documents; issuing subpoenas; analyzing
     financial records; and coordinating work between the U.S.
     Department of Justice, other law enforcement partners, and Board
     and Reserve Bank staff. Examples of investigations affecting
     the Board’s ability to carry out its supervisory and regulatory
     responsibilities over bank holding companies are provided below,
     although due to prosecutorial discretion and the nature of the
     investigative process, certain criminal allegations investigated by our
     office may not appear in U.S. Department of Justice indictments or
     plea agreements.


     Seven Former Bank Officers Pleaded Guilty in Loan-Fraud
     Scheme That Preceded Collapse of First National Bank of
     Savannah
     Seven former officers of First National Bank of Savannah,
     Savannah, Georgia, pleaded guilty before a United States District
     Court Chief Judge, Southern District of Georgia, for their role in a
     massive loan-fraud scheme against First National Bank of Savannah
     and other federally insured banks. The defendants pleaded guilty
     to various charges in a 47-count indictment returned by a federal
     grand jury in Savannah in January 2013. First National Bank of
     Savannah is a subsidiary of First National Corporation, a bank
     holding company regulated by the Board.
     The officers were
        •	 the former Vice President of Credit Administration of First
           National Bank of Savannah, who pleaded guilty on October 25,
           2013, to a single count of bank fraud
        •	 the former President and CEO of First National Bank of
           Savannah, who pleaded guilty on November 12, 2013, to
           conspiring to defraud First National Bank of Savannah and
           other federally insured banks




     Office of Inspector General
52
     Board of Governors of the Federal Reserve System | Consumer Financial Protection Bureau
  •	 the former Executive Vice President and Chief Financial
     Officer of First National Bank of Savannah, who pleaded guilty
     on January 15, 2014, to two counts of bank fraud
  •	 the former City President of the Richmond Hill branch and a
     Commercial Loan Officer of First National Bank of Savannah,
     who pleaded guilty on January 15, 2014, to a single count of
     false entries made in bank records
  •	 a former Senior Vice President and Commercial Loan Officer
     of First National Bank of Savannah, who pleaded guilty on
     January 16, 2014, to two counts of bank fraud
  •	 the former City President and Senior Lending Officer of First
     National Bank of Savannah, who pleaded guilty on January 17,
     2014, to two counts of bank fraud
  •	 the former City President of the Tybee Island branch and a
     Commercial Loan Officer of First National Bank of Savannah,
     who pleaded guilty on January 21, 2014, to two counts of bank
     fraud
According to evidence presented during the guilty plea hearings,
as First National Bank of Savannah’s financial condition began to
deteriorate, the defendants attempted to conceal from the bank, the
bank’s board of directors, and federal regulators millions of dollars in
nonperforming loans. The defendants accomplished their scheme by
unlawfully loaning money to unqualified nominees to make interest
and other payments on other nonperforming loans and by enticing
others to take over nonperforming loans with hidden promises,
side deals, and other terms unfavorable to First National Bank of
Savannah and by recruiting other banks to fund nonperforming
loans based on fraudulent misrepresentations about the quality of
the loans. To assist in their scheme, the defendants falsified and
fabricated numerous bank documents and records. First National
Bank of Savannah failed and was taken over by the FDIC as
receiver on June 25, 2010. The FDIC estimates that First National
Bank of Savannah’s failure will cost the DIF over $90 million.
The defendants will be sentenced after the United States Probation
Office completes its presentence investigations. The defendants
remain on bond pending sentencing. This case was the result of
a joint investigation by the Board-CFPB OIG, the FDIC OIG,




Semiannual Report to Congress | October 1, 2013–March 31, 2014             53
     and the Treasury OIG. This case is being prosecuted by the U.S.
     Attorney’s Office for the Southern District of Georgia.


     Missing Georgia Bank Director, Accused of Embezzling
     More Than $20 Million, Arrested
     A former Bank Director, originally from Lyons, Georgia, who
     was indicted in July 2012 by a federal grand jury in the Southern
     District of Georgia on a charge that he defrauded the Montgomery
     Bank & Trust, Ailey, Georgia, of over $21 million, was arrested on
     December 31, 2013, by members of the Glynn County Sheriff ’s
     Department who were conducting a random vehicle and traffic stop.
     Montgomery Bank & Trust is a subsidiary of Montgomery County
     Bankshares, Inc., a bank holding company regulated by the Board.
     According to the allegations in the indictment against the former
     Bank Director, in 2010, an investment group he controlled
     invested approximately $10 million in the failing Montgomery
     Bank & Trust. He was then made a director of Montgomery
     Bank & Trust and became responsible for investing the bank’s
     capital. The indictment alleged that over the next 18 months,
     he stole, misappropriated, and embezzled over $21 million from
     Montgomery Bank & Trust. To cover up his fraud, he allegedly
     provided bank officials with false account statements that indicated
     that the bank’s capital was safely held in an account at a financial
     services firm.
     Before the arrest, the former Bank Director was last seen in
     June 2012 boarding a ferry in Key West, Florida, bound for
     Fort Myers, Florida. He disappeared after writing a letter to
     acquaintances and regulators indicating that he had lost a large
     amount of money and that he planned to take his own life. The
     FBI had been actively searching for him since the date of his
     disappearance. He was stopped by deputies from the Glynn County
     Sheriff ’s Department on Interstate 95 in Brunswick, Georgia.
     When deputies learned of his true identity, he was arrested and
     taken into custody.
     The former Bank Director is charged with one count of bank fraud
     in the Southern District of Georgia, which carries a maximum
     sentence of 30 years in prison and a fine of up to $1 million. He
     faces additional charges in New York. This case was the result of a




     Office of Inspector General
54
     Board of Governors of the Federal Reserve System | Consumer Financial Protection Bureau
joint investigation by the Board-CFPB OIG, the FDIC OIG, and
the FBI. This case is being prosecuted by the U.S. Attorney’s Office
for the Southern District of Georgia.


Two Former United Commercial Bank Officials Charged
in Superseding Indictment
On March 11, 2014, a former Executive Vice President and a
former Senior Vice President of United Commercial Bank were
charged with additional federal offenses in a superseding indictment
returned by a federal grand jury in San Francisco, California. Both
officers had been previously charged in an earlier indictment,
dated September 15, 2011, on several counts, including securities
fraud, falsifying corporate books and records, and false statements
to accountants of a publicly traded company. The superseding
indictment contains all of the previous charges and includes
additional counts. United Commercial Bank is a subsidiary of
UCBH Holdings, Inc., a bank holding company regulated by the
Board.
According to the superseding indictment, the former Executive Vice
President and the former Senior Vice President worked for United
Commercial Bank from September 2008 through April 2009.
These former executives allegedly engaged in a fraudulent scheme
to deceive United Commercial Bank, the bank’s depositors, the
investing public, the Securities and Exchange Commission, auditors,
and bank regulators by manipulating United Commercial Bank’s
books and records in a manner that misrepresented and concealed
the bank’s true financial condition and performance and caused
United Commercial Bank to issue false and misleading statements
and representations.
As a further part of the scheme to defraud, the defendants and
others allegedly misled and lied to the bank’s auditor and failed to
disclose facts necessary to make their statements and representations
complete and accurate. The defendants and others allegedly
misrepresented various bank loans and collateral securing those
loans and concealed and omitted material information related
to (1) the existence of recent appraisals of collateral that secured
various bank loans, (2) the value of repossessed assets and collateral,
and (3) the bank’s intention to sell various loans as well as pending
loan sales.




Semiannual Report to Congress | October 1, 2013–March 31, 2014            55
     This case was the result of a joint investigation by the Board-CFPB
     OIG, the FDIC OIG, SIGTARP, and the FBI. This case is being
     prosecuted by the U.S. Attorney’s Office for the Northern District
     of California.


     Former One Bank & Trust N.A. Vice President Indicted for
     Bank Fraud and Money Laundering
     On November 8, 2013, an indictment was unsealed in the Eastern
     District of Arkansas charging a former Vice President and
     Controller of One Bank & Trust N.A., Little Rock, Arkansas,
     with 30 counts of bank fraud and 30 counts of money laundering.
     According to records from Treasury’s Troubled Asset Relief
     Program (TARP), One Financial Corporation, the bank holding
     company for One Bank & Trust N.A., received $17.3 million in
     June 2009 in federal taxpayer funds through TARP.
     The indictment alleges that while employed with One Bank &
     Trust N.A., the defendant obtained 30 cashier’s checks from
     January 2009 to October 2011 by using his position to sign cashier’s
     checks drawn on a One Bank & Trust N.A. clearing account. He
     would then mail the cashier’s checks to two credit card companies
     with which he had personal accounts to pay off the credit card
     bills. In total, the defendant is alleged to have stolen approximately
     $74,974. When confronted by One Bank & Trust N.A.
     management, he admitted his actions. He was allowed to resign, and
     he paid back the amount he had stolen.
     The case was investigated by the Board-CFPB OIG, the Internal
     Revenue Service–Criminal Investigation Division, SIGTARP,
     the FBI, and the FDIC. The case is being prosecuted by the U.S.
     Attorney’s Office for the Eastern District of Arkansas.


     Former Bank Holding Company Officer Sentenced
     On March 25, 2014, the former Chairman, President, and majority
     shareholder of Calvert Financial Corporation (CFC), Ashland,
     Missouri, the bank holding company for Mainstreet Bank,
     was sentenced in United States District Court to two years of
     probation, during which he will serve eight months in a halfway
     house to be followed by four months of electronically monitored
     home detention. The former CFC officer was also ordered to




     Office of Inspector General
56
     Board of Governors of the Federal Reserve System | Consumer Financial Protection Bureau
make restitution to CFC in the amount of $96,978 and was
assessed a criminal fine of $10,000 and a special assessment of $25.
Additionally, the former officer executed a consent order with the
Board agreeing not to become or continue serving as an officer,
director, employee, or institution-affiliated party as originally agreed
to in his plea agreement.
Previously, the former CFC officer entered into a plea agreement on
August 26, 2013, with the U.S. Attorney’s Office for the Western
District of Missouri. The former CFC officer, who also served as
the Chairman and Chief Financial Officer of Mainstreet Bank,
pleaded guilty to an information in federal court to one count of
making a false writing in violation of 18 U.S.C. § 1018.
According to the plea agreement, in November 2008, CFC applied
to receive TARP funds. In January 2009, CFC received $1,037,000
through TARP. The Chairman, as the duly authorized Senior
Executive Officer of CFC, signed all transaction documents related
to the acquisition of the TARP funds. On February 2, 2009, the
Chairman used $381,487 of the TARP funds to purchase a luxury
condominium in Fort Myers, Florida. The Chairman arranged the
transfer of funds for the purchase of the condominium and executed
all transaction documents for the purchase.
As part of its duty to supervise, audit, and investigate institutions
that received TARP funds, SIGTARP was required to annually
submit to Congress a report detailing how those institutions
that received TARP funds used their funds. Pursuant to its duty,
SIGTARP transmitted letters to various financial institutions
seeking specific information as to how TARP funds were used by
the institution.
In a letter transmitted to SIGTARP dated February 10, 2009, the
Chairman responded to the SIGTARP use-of-funds inquiry. In his
letter, the Chairman failed to disclose that a significant portion of
TARP funds had been used to acquire the condominium. According
to the plea agreement, the failure by the Chairman to disclose the
purchase of the condominium was a material misrepresentation of
facts relating to the true use of TARP funds by CFC.
As part of the plea agreement, the Chairman agreed to enter into a
consent order of removal and prohibition with the Board in which
he agreed not to become or continue serving as an officer, director,




Semiannual Report to Congress | October 1, 2013–March 31, 2014             57
     employee, or institution-affiliated party without the prior approval
     of the appropriate federal financial institution regulatory agency.
     This is a joint investigation by the Board-CFPB OIG, the FBI,
     and SIGTARP. This case is being prosecuted by the U.S. Attorney’s
     Office for the Western District of Missouri.


     Table 9: Summary Statistics on Investigations During the
     Reporting Perioda
                                                                                Number or
       Investigative actions                                                    dollar value
       Investigative caseload
         Investigations open at end of previous reporting period                           59
         Investigations opened during the reporting period                                 12
         Investigations closed during the reporting period                                     1
         Investigations open at end of the period                                          70
       Investigative results for the reporting period
         Referred to prosecutor                                                                8
         Joint investigations                                                              32
         Referred to audit                                                                     0
         Referred for administrative action                                                    0
         Oral and/or written reprimands                                                        0
         Terminations of employment                                                            1
         Arrests                                                                               4
         Suspensions                                                                           0
         Debarments                                                                            0
         Indictments                                                                           9
         Criminal information                                                                  2
         Convictions                                                                       12
         Monetary recoveries                                                               $0
         Civil actions                                                                     $0
         Criminal fines, restitution, and forfeiture                           $338,632,385
         Asset forfeiture                                                                  $0
        a.	 Some of the investigative numbers may include data also captured by
            other OIGs.




     Office of Inspector General
58
     Board of Governors of the Federal Reserve System | Consumer Financial Protection Bureau
Hotline
The OIG Hotline serves as a resource for individuals to report
fraud, waste, abuse, or mismanagement related to the programs or
operations of the Board and the CFPB. Hotline staff members can
be reached by phone, fax, mail, or e-mail. OIG analysts review all
incoming Hotline communications, research and analyze the issues
raised, and determine how to best address the complaints. During
this reporting period, the Hotline received 306 complaints.
The OIG Hotline continued to receive a significant number of
complaints involving suspicious solicitations invoking the name
of the Federal Reserve. Hotline staff members continue to advise
all individuals that these “phishing” e-mails are solicitations that
attempt to obtain the personal and/or financial information of the
recipient and that neither the Board nor the Federal Reserve Banks
endorse or have any involvement in them.
The OIG continued to receive a significant number of complaints
from individuals seeking information about or wanting to file
noncriminal consumer complaints regarding credit cards, student
loans, mortgages, or other consumer financial products and services.
In these matters, Hotline staff members typically refer complainants
to the consumer group of the appropriate federal regulator for the
institution involved, such as the OCC Customer Assistance Group
or CFPB Consumer Response.


Table 10: Summary Statistics on Hotline Activities During the
Reporting Period
 Hotline complaints                                              Number
 Complaints pending from previous reporting period                        7
 Complaints received during reporting period                         306
 Total complaints for reporting period                               313
 Complaints resolved during reporting period                         311
 Complaints pending                                                       2




Semiannual Report to Congress | October 1, 2013–March 31, 2014                59
Legal Services
The Legal Services program serves as the independent legal counsel
to the IG and the OIG staff. The Legal Services staff members
provide comprehensive legal advice, research, counseling, analysis,
and representation in support of OIG audits, investigations,
inspections, evaluations, and other professional, management, and
administrative functions. This work provides the legal basis for the
conclusions, findings, and recommendations contained in OIG
reports. Moreover, Legal Services keeps the IG and the OIG staff
aware of recent legal developments that may affect the activities of
the OIG, the Board, and the CFPB.
In accordance with section 4(a)(2) of the IG Act, Legal Services
staff members conduct an independent review of newly enacted and
proposed legislation and regulations to determine their potential
effect on the economy and efficiency of the Board’s and the CFPB’s
programs and operations. During this reporting period, Legal
Services reviewed 15 legislative and 7 regulatory items.




Semiannual Report to Congress | October 1, 2013–March 31, 2014         61
Communications and
Coordination
The OIG’s primary mission is to enhance the economy, efficiency,
and effectiveness of Board and CFPB programs and operations, and
we coordinate externally and work internally to achieve our goals
and objectives. Externally, we regularly coordinate with and provide
information to Congress and congressional staff. We also are active
members of the broader IG professional community and promote
collaboration on shared concerns. Internally, we consistently strive
to enhance and maximize efficiency and transparency in our
infrastructure and day-to-day operations. Within the Board, the
CFPB, and the Federal Reserve System, we continue to provide
information about the OIG’s roles and responsibilities. In addition,
we participate in an advisory capacity on various Board workgroups.
Highlights of our communications and coordination activities
follow.



Congressional Coordination
and Testimony
The OIG communicates and coordinates with various congressional
committees on issues of mutual interest. During the reporting
period, we provided 22 responses to inquiries from congressional
members and staff concerning the Board and the CFPB.



Council of Inspectors General
on Financial Oversight
Consistent with the Dodd-Frank Act, CIGFO is required to meet
at least quarterly to facilitate the sharing of information among
the IGs and to discuss the ongoing work of each IG, with a focus
on concerns that may apply to the broader financial sector and
ways to improve financial oversight. During this reporting period,
CIGFO met on December 5, 2013, and March 13, 2014. CIGFO




Semiannual Report to Congress | October 1, 2013–March 31, 2014         63
     is also required to annually issue a report that highlights the IGs’
     concerns and recommendations, as well as issues that may apply to
     the broader financial sector. CIGFO plans to issue its fourth annual
     report in July 2014.



     Council of the Inspectors General on
     Integrity and Efficiency and Inspector
     General Community Involvement
     The IG is a member of CIGIE, which provides a forum for IGs
     from various government agencies to discuss governmentwide issues
     and shared concerns. Collectively, the members of CIGIE work
     toward improving government programs and operations. The IG
     also serves as a member of CIGIE’s Legislation Committee and
     Investigations Committee and leads the Information Technology
     Subcommittee of the Legislation Committee. The Legislation
     Committee is the central point of information regarding
     legislative initiatives and congressional activities that may affect
     the community, such as proposed cybersecurity legislation that
     was reviewed during the reporting period. The Investigations
     Committee advises the IG community on issues involving criminal
     investigations, criminal investigations personnel, and establishing
     criminal investigative guidelines. The Associate Inspector General
     for Legal Services serves as the chair of the Council of Counsels
     to the IG, and Legal Services staff attorneys are members of
     the council. In addition, the Associate Inspector General for
     Information Technology, as the chair of the IT Committee of
     the Federal Audit Executive Council, works with IT audit staff
     throughout the IG community and reports to the CIGIE Audit and
     IT Committees on common IT audit issues.



     Financial Regulatory Coordination
     To foster cooperation on issues of mutual interest, the IG
     communicates periodically with the IGs from other federal
     financial regulatory agencies, including the FDIC, Treasury,
     the National Credit Union Administration, the Securities and
     Exchange Commission, the Farm Credit Administration, the




     Office of Inspector General
64
     Board of Governors of the Federal Reserve System | Consumer Financial Protection Bureau
Commodity Futures Trading Commission, the Pension Benefit
Guaranty Corporation, the U.S. Department of Housing and
Urban Development, and the Federal Housing Finance Agency.
In addition, the Associate Inspector General for Audits and
Evaluations and the Associate Inspector General for Information
Technology and their management staffs meet with their financial
regulatory agency OIG counterparts to discuss various topics, such
as annual plans and ongoing projects. The OIG also coordinates
with the U.S. Government Accountability Office regarding financial
regulatory and other related issues.




Semiannual Report to Congress | October 1, 2013–March 31, 2014       65
Peer Reviews
Government auditing and investigative standards require that
our audit and investigative units each be reviewed by a peer OIG
organization every three years. Section 989C of the Dodd-Frank
Act amended the IG Act to require that OIGs provide in their
semiannual reports to Congress specified information regarding
(1) peer reviews of their respective organizations and (2) peer
reviews they have conducted of other OIGs. The following
information addresses these Dodd-Frank Act requirements.
  •	 The last peer review of the OIG’s audit organization was
     completed in December 2011 by the Pension Benefit Guaranty
     Corporation OIG. We received a peer review rating of pass.
     There were no report recommendations nor were any peer
     review recommendations pending from any previous peer
     reviews of our audit organization.
  •	 The last peer review of the OIG’s Office of Investigations was
     completed in October 2013 by the U.S. Railroad Retirement
     Board OIG. We received a peer review rating of pass. There
     were no report recommendations nor were any peer review
     recommendations pending from any previous peer reviews
     of our investigative organization. The peer review included
     suggestions for improvement, which we have considered and
     incorporated into updated policies and procedures where
     appropriate.




Semiannual Report to Congress | October 1, 2013–March 31, 2014        67
Abbreviations
Board	                 Board of Governors of the Federal Reserve System
BS&R	                  Division of Banking Supervision and Regulation
CCAR	                  Comprehensive Capital Analysis and Review
CEO	                   Chief Executive Officer
CFC	                   Calvert Financial Corporation
CFPB	                  Consumer Financial Protection Bureau
CIGFO	                 Council of Inspectors General on Financial Oversight
CIGIE	                 Council of the Inspectors General on Integrity and Efficiency
CPF	                   Civil Penalty Fund
DHS	                   U.S. Department of Homeland Security
DIF	                   Deposit Insurance Fund
Dodd-Frank Act	        Dodd-Frank Wall Street Reform and Consumer Protection Act
FBI	                   Federal Bureau of Investigation
FDI Act	               Federal Deposit Insurance Act, as amended
FDIC	                  Federal Deposit Insurance Corporation
FFIEC	                 Federal Financial Institutions Examination Council
FISMA	                 Federal Information Security Management Act of 2002
FY	                    fiscal year
GPRA	                  Government Performance and Results Act of 1993, as amended by the
                       GPRA Modernization Act of 2010
IG	                    Inspector General
IG Act	                Inspector General Act of 1978, as amended
IT	                    information technology
LEU	                   Law Enforcement Unit
NIST	                  National Institute of Standards and Technology
OCC	                   Office of the Comptroller of the Currency
OIG	                   Office of Inspector General
RBOPS	                 Division of Reserve Bank Operations and Payment Systems
SIGTARP	               Special Inspector General for the Troubled Asset Relief Program
TARP	                  Troubled Asset Relief Program
Treasury	              U.S. Department of the Treasury




Semiannual Report to Congress | October 1, 2013–March 31, 2014                             69
Office of Inspector General
Board of Governors of the Federal Reserve System
20th Street and Constitution Avenue NW
Mail Stop K-300
Washington, DC 20551
Phone: 202-973-5000 | Fax: 202-973-5044

OIG Hotline	 1-800-827-3340 | OIGHotline@frb.gov
